<html>
<title> - GRAZING</title>
<body><pre>[Senate Hearing 109-245]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-245
 
                                GRAZING

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   TO

 REVIEW THE GRAZING PROGRAMS OF THE BUREAU OF LAND MANAGEMENT AND THE 
FOREST SERVICE, INCLUDING PROPOSED CHANGES TO GRAZING REGULATIONS, AND 
  THE STATUS OF GRAZING REGULATIONS, AND THE STATUS OF GRAZING PERMIT 
     RENEWALS, MONITORING PROGRAMS AND ALLOTMENT RESTOCKING PLANS.

                               __________

                           SEPTEMBER 28, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
25-686                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman

CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
GEORGE ALLEN, Virginia               DIANNE FEINSTEIN, California
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                 Dick Bouts, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Byrne, Michael, President, Public Lands Council, on Behalf of the 
  National Cattlemen's Beef Association..........................    20
Craig, Hon. Larry E., U.S. Senator From Idaho....................     1
Dorgan, Hon. Byron L., U.S. Senator From North Dakota............    13
Hughes, Jim, Deputy Director, Bureau of Land Management, 
  Department of the Interior.....................................     3
Knight, Dr. Richard L., Professor of Wildlife Conservation, 
  Department of Forest, Rangeland and Watershed Stewardship, 
  College of Natural Resources, Colorado State University........    30
Norbury, Fred, Associate Deputy Chief, National Forest System, 
  Forest Service, Department of Agriculture......................     8
Salazar, Hon. Ken, U.S. Senator From Colorado....................    13
Smith, Hon. Gordon, U.S. Senator From Oregon.....................     2
Whelan, William S., Director of Government Relations, The Nature 
  Conservancy....................................................    25

                                APPENDIX

Responses to additional questions................................    39


                                GRAZING

                              ----------                              


                     WEDNESDAY, SEPTEMBER 28, 2005

                               U.S. Senate,
          Subcommittee of Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington D.C.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Larry E. Craig 
presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good afternoon, everyone, and welcome. 
Today's oversight hearing is on grazing programs of the Forest 
Service and the BLM administered on Federal Lands. I am hoping 
Senator Wyden will show along with other members. A variety of 
committees are meeting right now, so I know there's a cross 
conflict with a good number of my colleagues.
    I also want to welcome our witnesses on our first panel. We 
have Jim Hughes, Deputy Director for the Bureau of Land 
Management and Fred Norbury, Associate Deputy Chief of the 
National Forest Service System. On our second panel we have 
Mike Byrne, chairman of the NCBA's Federal Lands Committee from 
Tule Lake, California; along with Will Whelan, with the Nature 
Conversancy from Boise, Idaho; and Rick Knight, wildlife 
ecologist, from Colorado State University, Fort Collins, 
Colorado.
    The ranching industry continues to be under assault. 
Whether by benign neglect, lack of adequate priorities, 
interest, or intention, anti-grazing actions of the past 
decade--we've reached a state of urgency for addressing our 
Federal grazing programs. This administration has shown a 
commitment to solving these problems and maybe we are beginning 
to turn the corner, but there still is much to do. It is my 
intention to continue with oversight hearings in the future 
until I'm confident and my colleagues are that there has been 
sufficient progress that we have sustainable programs on the 
ground that will support a viable industry.
    I expect within the next year this subcommittee will expand 
this oversight effort to other aspects of the Federal Land 
Management Programs. I would like to ask my colleagues to help 
us identify the priorities of programs we might address first. 
As a former rancher I know the benefits and the challenges of 
grazing. In Idaho the cattle industry is one of our most 
valuable agriculture industries and products from our State.
    I've proudly stated my support for the use of public lands 
for grazing because I believe that multiple use on public lands 
is a win/win situation. Ranchers are good stewards of the land. 
They know that their livelihoods are dependent upon the land 
and if they abuse it they will not prosper, and in some 
instances they could lose the right to use it.
    I am confident that we can preserve the historic use of 
public lands while protecting our environment. I know I'm not 
alone in this perspective and we will hear more of that from 
our witnesses today.
    It's becoming increasingly clear that the circumstances 
that our ranchers and our land managers operate under today 
have changed dramatically from the past. We have processes that 
no longer seem to serve us well. I've asked my staff to begin 
exploring opportunities for legislative reform that will 
streamline the time-consuming and costly permitting and 
decisionmaking procedures that seem to hamstring our land 
managers. It's not my intention to abandon or waive 
environmental law, but we must find a better way to administer 
our public lands and get land managers out of the courts and 
back on the ground, and get our lands back into the hands of 
professional managers.
    Today we will hear from the administration. They will 
discuss the current status of their grazing programs and their 
progress on rangeland management. I've asked the agency 
witnesses to speak on the current management situation with 
respect to finalizing new grazing regulations, the status on 
the permit backlog and the use of monitoring funds. I look 
forward to their testimony on what I believe is really a 
fundamentally important issue on public rangelands.
    I've not yet been joined by my colleagues so we will move 
to our first panel. I'd ask Mr. Hughes and Mr. Norbury to come 
forward, please. Once again, Jim Hughes, Deputy Director Bureau 
of Land Management and Fred Norbury, Associate Deputy Chief of 
our National Forest System.
    Gentlemen, welcome before the committee. Jim, we'll start 
with you.
    [The prepared statement of Senator Smith follows:]

  Prepared Statement of Hon. Gordon H. Smith, U.S. Senator From Oregon

    I believe that this hearing is well-timed to address the concerns 
of my constituents. The cost and delays of legal challenges to public 
lands grazing is truly threatening their livelihood.
    The eastern part of Oregon, where I come from, is largely owned by 
the federal government. Places like Harney and Malheur Counties are 
over 70% federally owned and managed. These places are literally 
surrounded by the great ``unshorn fields'' of the West. Eastern Oregon 
is cattle country--not because it's romantic or trendy--but because 
that's what has worked there for a hundred years. Public lands grazing 
is more than a ``way of life''--but it is one that is in jeopardy.
    I am astounded by the complex web of regulations that land managers 
must implement. I heard about them first-hand just a few weeks ago in 
John Day, Oregon. I also recognize that appeals and litigation are 
often encouraged by declining federal budgets and the attrition of 
experienced employees. On the Malheur National Forest alone, there are 
two grazing lawsuits on appeal in the 9th Circuit. Environmentalists 
have announced that they will file a third.
    I have already seen this pattern with the federal timber program in 
Oregon. I have seen what it does to communities, and ultimately to the 
land itself.
    Updating our regulations is necessary. Strengthening partnerships 
with stakeholders and land grant universities is necessary. Legislation 
may be necessary as well.
    Our goal should be to return range management to local expertise, 
rather than legalese.

   STATEMENT OF JIM HUGHES, DEPUTY DIRECTOR, BUREAU OF LAND 
             MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Hughes. Thank you, Mr. Chairman, and especially for 
this opportunity to discuss the work we're doing at the BLM to 
provide good stewardship of the public rangelands and to 
discuss livestock grazing on public lands in particular. With 
me today, I just wanted to recognize him, this week we're 
having a national monitoring strategy conference in town and 
one of our key leaders in that effort is our Idaho State BLM 
Director, K. Lynn Bennett, who is here with me today.
    Senator Craig. Thank you for recognizing Director Bennett.
    K. Lynn, thank you for being with us and thank you for your 
leadership.
    Mr. Hughes. We submitted our testimony and in the interest 
of time I'll summarize my written remarks for the record.
    The administration recognizes that the conservation and 
sustainable use of rangelands is especially important to those 
who make their living on these landscapes, and is vital to the 
economic well-being and cultural identity of the West and to 
rural Western communities.
    The BLM continues to work in collaboration with our 
partners to make progress in our understanding and management 
of rangelands and we are working diligently to evaluate and 
improve rangeland health, to update our regulations, to improve 
grazing management and assure stability of ranching on public 
lands, and to make progress in reducing the grazing permit 
renewal backlog.
    The BLM manages grazing on nearly 160 million acres of 
public rangeland, with grazing use authorized by approximately 
18,000 permits and leases on about 20,600 allotments.
    These permits and leases allow the sustainable annual 
harvest of up to 12.7 million animal unit months. In fiscal 
year 2004, actual use was approximately 6.6 million animal unit 
months primarily due to fires and the drought of the past 
several years.
    In 1999, BLM began evaluating the health of the rangelands 
based on land health standards developed in consultation with 
local Resource Advisory Councils. The BLM collects monitoring 
and assessment data to compare current conditions with the land 
health standards and land use plan goals. This information is 
used to complete environmental assessments, develop alternative 
management actions, and to modify management as needed to meet 
these land health standards and objectives.
    Mr. Chairman, as you know, the BLM is in the process of 
finalizing the documentation associated with new proposed 
grazing regulations. These regulatory changes were proposed 
with the objective of improving grazing management and 
continuing to promote stability for ranching on public lands. 
This has been a lengthy but productive process that has 
involved extensive public review and comment. And we anticipate 
publication of a final rule in 2006.
    The proposed changes are, we believe, an important step 
forward to improve BLM grazing administration, and will draw 
upon the lessons learned since the previous revisions of more 
than 10 years ago. The BLM undertook this regulatory initiative 
in recognition of the economic and social benefits of public 
lands grazing, as well as the role of ranching in preserving 
open space and wildlife habitat in the rapidly growing West.
    The major objectives set forth in the proposed rule are to 
improve the agency's working relationships with public land 
ranchers, conserve rangeland resources, and address legal 
issues, while enhancing administrative efficiency. It should be 
noted that the new regulations would not affect the Resource 
Advisory Council System, and would leave intact the substance 
of the rangeland health standards and guidelines developed in 
consultation with the RACs. Additional details about the 
proposed regulations are included in my written testimony.
    Another emphasis of BLM's range program is dealing with the 
backlog of grazing permit renewals and the spike in grazing 
permit renewals in 1999 and 2000, when over 7,200 permits were 
due for renewal, as compared to the annual average of about 
1,800.
    The BLM is in its sixth full year of reducing the grazing 
permit renewal backlog created by the spike and at the end of 
fiscal year 2004, we have fully processed nearly 85 percent of 
the grazing permits that have expired since fiscal year 1999.
    Processing a permit consists primarily of analyzing 
environmental impacts using appropriate National Environmental 
Policy Act documentation and, where applicable, Endangered 
Species Act consultation.
    While other workload demands on range personnel can reduce 
the number of grazing permits that can be fully processed in a 
given year, the BLM's goal is to eliminate the backlog of 
grazing permits and to issue permits in the year they expire by 
the end of 2009--as we have indicated in the past. We will 
continue to keep the committee informed of our progress in this 
regard.
    In conclusion, Mr. Chairman, the BLM is dedicated to the 
future well-being of the public rangelands, and is committed to 
managing them for the many uses that serve the broad public 
interest. We look forward to continuing to work with the 
committee to ensure their long-term viability and health.
    Thank you again for the opportunity to testify on this 
important issue. I would be happy to answer questions from the 
committee.
    [The prepared statement of Mr. Hughes follows:]

   Prepared Statement of Jim Hughes, Deputy Director, Bureau of Land 
                 Management, Department of the Interior

    Mr. Chairman, thank you for the opportunity to discuss the work 
we're doing at the Bureau of Land Management (BLM) to provide good 
stewardship of the public rangelands and to discuss livestock grazing 
on public lands in particular. Our nation's rangelands provide and 
support a variety of goods, services, and values that are important to 
every American. They conserve soil, store and filter water, sequester 
carbon, provide a home for an abundance of wildlife, provide scenic 
beauty and the setting for many forms of recreation, and are an 
important source of food and water for domestic livestock. The 
Administration recognizes that the conservation and sustainable use of 
rangelands is especially important to those who make their living on 
these landscapes, and is vital to the economic well-being and cultural 
identity of the West and to rural Western communities.
    The BLM takes seriously its challenge to conserve and manage this 
vital component of our Nation's natural resource base and great legacy 
of the American west for current and future generations. We continue to 
work in collaboration with our partners--ranchers, other Federal 
agencies, state and local governments, researchers, conservation groups 
and others--to make progress in our understanding and management of 
rangelands.
    As I will discuss further below, as part of these efforts, we are 
working diligently to evaluate and improve rangeland health; to update 
our regulations to improve grazing management and assure stability of 
ranching on public lands; and to make progress in reducing the grazing 
permit renewal backlog.

           RANGELAND MANAGEMENT BACKGROUND / FACTS & FIGURES

    The BLM performs its rangeland management duties under the 
authority of several laws, primary among which are the Taylor Grazing 
Act (TGA), the Federal Land Policy and Management Act (FLPMA), and the 
Public Rangelands Improvement Act (PRIA). The BLM manages grazing on 
nearly 160 million acres of public rangeland, with use authorized by 
approximately 18,000 permits and leases on about 20,600 allotments.
    These permits and leases allow the sustainable annual harvest of up 
to 12.7 million animal unit months (AUMs; or the amount of forage 
necessary to sustain a cow and her calf for a month). In Fiscal Year 
2004, actual use was approximately 6.6 million AUMs due to drought and 
fires. As the Committee is well aware, much of the West has been in the 
grip of a drought during the last five years, affecting the 
availability of forage and water in many areas, resulting in reduced 
grazing use. These reductions were the most pronounced in 2002, 2003, 
and 2004.

                         LAND HEALTH STANDARDS

    In 1999, BLM began evaluating the health of the rangelands (``Land 
Health Evaluations or Assessments'') based on Land Health Standards 
that were developed in consultation with local Resource Advisory 
Councils (RACs). These standards are based on the four fundamentals of 
rangeland health found in BLM's Grazing Regulations, and address 1) 
water quality, 2) wildlife habitat, 3) soil stability, and 4) energy 
flow and nutrient cycling. By the end of FY 2004, approximately 45% of 
the allotments had been evaluated, and about 78% of these were meeting 
all Land Health Standards under current management. About 16% were not 
meeting at least one standard because of current livestock grazing 
management, while the remaining 6% of allotments were not meeting at 
least one standard due to other, non-grazing, factors. Adjustments in 
livestock grazing management have been made on 85% of the allotments 
where it was needed, and BLM is coordinating appropriate adjustments on 
the other 15%.
    The BLM collects monitoring and assessment data to compare current 
conditions with the Land Health Standards and land use plan objectives. 
This information is used to complete environmental assessments, develop 
alternative management actions, and to modify management as needed to 
meet these Land Health Standards and objectives.

             ASSESSMENT, INVENTORY & MONITORING INITIATIVE

    In order to enhance the efficiency and effectiveness of BLM's 
assessment, inventory, and monitoring efforts, the BLM in August 2004 
initiated a multi-year strategy (``Assessment, Inventory, and 
Monitoring Initiative'') to manage the collection, storage, and use of 
data regarding resource conditions and uses across the Bureau. This new 
effort is working to aggregate certain local and site-specific resource 
information so that it can be more easily utilized to address regional 
or national management questions.
    The multi-year effort will identify a limited number of natural 
resource condition measures that are common to most BLM field offices, 
and comparable to measures used by other land managing agencies for 
reporting at the national level. We will standardize data collection, 
evaluation, and reporting in a way that improves our land use 
decisions, and enhances our ability to manage for multiple uses. 
Finally, we will refine BLM information gathering efforts at the local 
level, thereby improving the BLM's ability to report on land health 
conditions.
    The initiative is already producing promising results. In the first 
year, the BLM conducted pilot projects throughout the Bureau that 
tested ways to improve and standardize protocols for measuring the 
effects of off-highway vehicle use and energy development on the public 
lands. The pilot projects also examined technologies to make our 
process of collecting vegetative condition data more efficient, and 
identified a common set of land health indicators for use by all 
Federal agencies. The initial progress with the initiative suggests 
that an overall BLM strategy can be implemented in a way that improves 
our efficiency and effectiveness for many years to come.

                      PROPOSED GRAZING REGULATIONS

    The BLM is in the process of finalizing the documentation 
associated with the proposed grazing regulations. The regulatory 
changes were proposed with the objective of improving grazing 
management and continuing to promote stability for ranching on public 
lands. As you know, this has been a lengthy but productive process that 
has involved extensive public review and comment. We anticipate 
publication of a final rule in 2006.
    The proposed changes are, we believe, an important step forward to 
improve BLM grazing administration, and will draw upon the lessons 
learned since the previous revisions of more than 10 years ago. The BLM 
undertook this regulatory initiative in recognition of the economic and 
social benefits of public lands grazing, as well as the role of 
ranching in preserving open space and wildlife habitat in the rapidly 
growing West.
    The major objectives as set forth in the proposed rule are to 
improve the agency's working relationships with public land ranchers; 
conserve rangeland resources; and address legal issues while enhancing 
administrative efficiency. It should be noted that the new regulations 
would not affect the Resource Advisory Council (RAC) System, and would 
leave intact the substance of the rangeland health standards and 
guidelines developed by State directors in consultation with the RACs. 
They also would make no change to the way the Federal grazing fee is 
calculated. The following is a summary of the major elements of the 
current draft of the proposed regulations.

Improved Working Relationships
    The proposed regulations would provide that the BLM and a grazing 
permittee or lessee (or other cooperating party) will share title to 
cooperatively constructed permanent range improvements--structures such 
as fences, wells, or pipelines. This shared-title provision reflects 
the Administration's view that ranchers, when contributing financially 
to the construction of range improvements, should share in their 
ownership in proportion to their investment. In addition, shared title 
may help some ranchers obtain loans more easily for their operations, 
and may serve as an incentive for livestock operators to undertake 
needed range improvements.
    Another proposed regulatory change is that BLM would phase in 
grazing-use decreases (and increases) of more than 10 percent over a 
five-year period. The phase-in would provide sufficient time for 
ranchers to make gradual adjustments in their operations, particularly 
so they can reduce adverse economic impacts resulting from any grazing 
reductions. The BLM would still retain authority to change or halt 
grazing immediately when needed to respond to drought, fire and other 
resource threats that require immediate action, or when legally 
required, such as where necessary to comply with the requirements of 
the Endangered Species Act.
    The proposed regulations also would make clear that BLM managers 
will use National Environmental Policy Act (NEPA) processes to consider 
the social, cultural, and economic effects of decisions that determine 
levels of authorized grazing use. This change will ensure that BLM 
managers across the West consistently consider and document the factors 
they took into account in assessing the potential impacts of such 
decisions on the human environment.

Conserve Rangeland Resources
    The proposed regulations would remove a restriction that had 
limited temporary non-use of a grazing permit to three consecutive 
years. The existing regulation allows the BLM to approve non-use each 
year for up to three consecutive years, but does not allow for a fourth 
year of non-use, whether it is needed or not. This change would allow 
BLM to approve non-use for one year at a time for conservation or 
business purposes with no limit on the number of consecutive years. The 
removal of this three-consecutive-year limit will promote rangeland 
health by giving the BLM more flexibility to cooperate with grazing 
permittees to rest the land as needed or to respond to changing 
business needs.
    The proposed regulations also would require BLM to use monitoring 
data in cases where our agency has found, based on our initial 
assessment, that a grazing allotment is failing to meet rangeland 
health standards or conform to the guidelines. By using monitoring 
data, the Bureau will be better able to determine the reasons for an 
allotment's failure to meet such standards, and to what extent, if any, 
grazing practices are at issue.
    Another change to the regulations would allow the BLM up to 24 
months to develop corrective management action in cases where existing 
grazing management or levels of use are significant factors in failing 
to meet the standards and conform with the guidelines. Under current 
regulation the BLM is required to implement corrective action before 
the start of the next grazing year, which, due to the period needed for 
completing planning and consultation, was often an unrealistic 
timeframe. The proposed revisions provide a reasonable timeframe for 
the BLM, permittee, and interested public to develop an appropriate 
action plan to improve conditions.

Address Legal Issues While Enhancing Administrative Efficiency
    The proposed regulations include numerous changes that address 
legal issues while enhancing administrative efficiency, several of 
which are summarized below.
    The proposed regulations would remove the existing provision that 
allows BLM to issue ``conservation use'' permits, which would authorize 
the holder to not graze. The 10th Circuit Court of Appeals ruled in 
1999 that the Secretary is not authorized to issue such permits.
    The proposed regulations would expand the definition of ``grazing 
preference'' to encompass the rancher's public land forage allocation. 
This expanded definition would be similar to one that existed from 1978 
to 1995, and reflects that the meaning of the term ``grazing 
preference'' has two parts: first, a priority over others to receive a 
livestock forage allocation on public lands; and second, the amount of 
forage actually allocated.
    The BLM attaches grazing preference to a rancher's private ``base'' 
property, which can be land or water, and upon approval by BLM would 
allow the preference number to be transferred to a purchaser of the 
base property, or to another qualifying base property.
    The proposed regulations would modify the definition of 
``interested public'' to cover only those individuals and organizations 
that actually participated in the process leading to specific grazing 
decisions. This regulation change seeks to provide for a more orderly 
and timely decision-making process by ensuring that those who would 
identify themselves as interested public participate in the decision-
making process before exercising their right to appeal and litigate 
such decisions. The BLM will continue to involve the public in grazing 
planning activities, such as allotment management planning, providing 
comment on and input to reports the BLM prepares, and range improvement 
project planning. The public would continue to receive BLM grazing 
decisions.
    In contrast to the current regulations, the proposed grazing 
regulations would provide that BLM has flexibility to seek a variety of 
water right arrangements under state law and would not have to only 
seek ownership of the water right in the name of the United States. 
This proposed provision, which would revise the 1995 grazing 
regulations, would give the BLM greater flexibility in negotiating 
arrangements for the construction of watering facilities in states 
where the Federal government is allowed to hold a livestock water 
right. The BLM would still have the option of seeking to acquire the 
water right, consistent with state water law.

                        GRAZING PERMIT RENEWALS

    Another emphasis of BLM's range program is dealing with the backlog 
of grazing permit renewals. By regulation, grazing leases and permits 
are normally issued for 10-year periods. In a typical year, the BLM has 
1,800 permits up for renewal. The BLM experienced a ``spike'' in 
grazing permit renewals in 1999 and 2000, when over 7,200 permits were 
due for renewal. The BLM is in its sixth full year of reducing the 
grazing permit renewal backlog created by the ``spike'' of 1999 and 
2000. At the end of Fiscal Year 2004, BLM had fully processed nearly 
85% of the grazing permits that have expired since Fiscal Year 1999. In 
addition, BLM is actively working to prevent a recurrence of the 1999 
and 2000 ``spike'' by processing and issuing permits scheduled to 
expire in the future. As a result, about 5,700 (reduced from the 
previous ``spike'' of 7,200) of the 18,000 permits are scheduled to 
expire in 2009 and 2010.
    Processing a permit consists primarily of analyzing environmental 
impacts using appropriate National Environmental Policy Act (NEPA) 
documentation and, where applicable, Endangered Species Act Section 7 
consultation. The BLM has been incorporating information from 
monitoring and land health evaluations to develop reasonable 
alternatives to be considered in the NEPA documents. This information 
is also used to coordinate and consult with permittees and other 
interested parties and to make informed decisions when issuing the 
permits.
    The BLM's goal is to eliminate the backlog of grazing permits and 
to issue permits in the year they expire by the end of FY 2009. The BLM 
continues to prioritize the collection of monitoring data to make sound 
grazing management decisions and to meet land health standards, as well 
as to ensure that the decisions are legally-defensible. Other workload 
demands on range personnel--such as oil and gas permit processing, 
wildfires, emergency rehabilitation projects, and land use planning--
can reduce the number of grazing permits that can be fully processed in 
a given year. Nevertheless, we are committed to eliminating the backlog 
of permit renewals, and will keep the Committee informed of our 
progress in this regard.

                               CONCLUSION

    The BLM is dedicated to the future well-being of the public 
rangelands, and is committed to managing them for the many uses that 
serve the broad public interest. We look forward to continuing to work 
with the Committee to ensure their long-term viability and health. 
Thank you again for the opportunity to testify on this important issue. 
I would be happy to answer questions from the Committee.

    Senator Craig. Jim, thank you very much.
    Fred.

  STATEMENT OF FRED NORBURY, ASSOCIATE DEPUTY CHIEF, NATIONAL 
    FOREST SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Norbury. Mr. Chairman, thank you for the opportunity to 
share some information with you on the progress that the Forest 
Service is making in the Range Program.
    In the interest of time I will submit my testimony for the 
record and summarize.
    Senator Craig. Both of your full statements will be a part 
of the record. Thank you.
    Mr. Norbury. In summary, I would really like to make just 
three points. First, on the backlog of work we have to do on 
permits and allotment management plans, in 1995 we set a target 
of 6,886 allotment management plans that needed to have a NEPA 
completed and as of today, we have slightly more than 3,000 
done. So with two-thirds of the time elapsed, we have slightly 
less than half of the work done. And some of the work that 
remains is some of the more difficult NEPA work that has to be 
done. Between now and the end of the fiscal year we had 
anticipated completing another 200. Of those 200, 74 were going 
to be completed under the categoric exclusion that Congress 
provided to us last year. As I can tell, only one of the 74 
would be exempt from the recent court decision. So 73 of those 
200 that we had expected to do will run past the end of this 
fiscal year, and carry over into the next fiscal year.
    We remain committed to the target of finishing up by 2010 
and we're still looking for efficiencies that will let us get 
that work done more quickly.
    On monitoring, we have recent reports that reemphasize what 
you've pointed out about the critical importance of monitoring, 
about the stubble height review team, and our Idaho and the 
Scientific Review Team in North Dakota have reemphasized the 
importance of monitoring. The essential position of the Forest 
Service is we can't do this alone. In terms of selecting what 
to monitor and determining how to monitor it, and in actually 
doing the monitoring work, we need the participation of other 
Federal agencies, and most importantly, the State agencies and 
the permitees themselves. In that respect, we think a bright 
spot is the amount of permitee monitoring that we're seeing 
now.
    Five years ago we had five permitees who were helping us 
with the monitoring, this last year we had 63 permitees who 
were helping us with the monitoring. Small numbers, but a 
substantial growth rate. And we're running training programs to 
train the permitees on how to do monitoring so they can help us 
do this important work.
    As you know, the drought conditions in the West have eased 
considerably from last year, and we're starting to return 
cattle to the range. In the Southwest, stocking levels were 
down around 50 percent of the permitted numbers, now they're 
running closer to 70 to 90 percent of permitted numbers and we 
believe we're able to accommodate all the requests for 
restocking, with the exception of the Tonto where that 
situation is particularly severe.
    Senator Craig. With the exception of the----
    Mr. Norbury. The Tonto National Forest. The Tonto is still 
down around 30 percent of their permitted numbers. We have an 
agreement with the local grazing associations on the restocking 
process, that's working very well.
    In Idaho, we've been able to accommodate all the requests 
for restocking that we face. As you know, the progress in 
restocking is limited by ecological conditions. One year of 
good rain is not enough in many ranges, it takes 2 years of 
good rain before we can be confident that the plants have 
regained their vigor. It's also limited in some cases by fire. 
This was true in the Tonto, fires burning up some of the fences 
and stock tags that help us control the grazing, and it's 
difficult to restock without those improvements.
    In other cases, ranches themselves face difficulty in 
restocking because they've been in a tough financial situation, 
so they can't go out and buy all the cows they would need to 
achieve full stocking. But the situation is improving. The only 
place we see severe drought conditions this year is in the 
interior Northwest.
    So those are the key points that I would highlight in my 
testimony. I'd be happy to entertain questions on these points 
or any other aspects of our grazing program.
    [The prepared statement of Mr. Norbury follows:]

 Prepared Statement of Fred Norbury, Associate Deputy Chief, National 
                Forest System, Department of Agriculture

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to present the subcommittee with an overview of livestock 
grazing management in the Forest Service. The Forest Service has been 
managing rangelands for 100 years, and has a long history of 
partnerships with livestock producers who rely upon National Forest 
System (NFS) lands. Livestock grazing on National Forests reserved from 
the public domain is administered under a number of statutes, including 
the Granger-Thye Act of 1950, the Multiple-Use Sustained-Yield Act of 
1960, the Forest and Rangeland Renewable Resources Planning Act of 
1974, and the Federal Land Policy and Management Act of 1976, among 
others. These laws augment the authority in the Organic Act of 1897, 
which established the National Forests and directed the agency to 
regulate the use and occupancy of the forests to protect them from 
destruction. Livestock grazing on National Grasslands is also 
administered under the Bankhead-Jones Farm Tenant Act of 1937. This law 
authorized a program of land conservation and utilization to improve 
past land uses practices.
    Today, there are grazing allotments on approximately 90 million 
acres of National Forest System lands in 34 states. The Forest Service 
administers approximately 8800 allotments, with over 8500 active 
livestock grazing permits, and about 9.6 million animal unit months of 
grazing by cattle, horses, sheep, and goats. Nearly all this permitted 
grazing is located in the Western states (99 percent), with only about 
one percent occurring in the Eastern forests.

          GRAZING ALLOTMENT PLANNING AND PERMIT ADMINISTRATION

    One of the most significant issues associated with our management 
of livestock grazing for the past several years has been in allotment 
planning. Specifically, the ability of the Agency to insure the 
necessary environmental analysis has been completed prior to the 
issuance of a grazing permit.
    On June 23, 2004, before this Subcommittee, the Administration 
testified concerning the Forest Service's progress in implementing 
Section 504 of Public Law 104-19 (the ``Rescissions Act''). Section 504 
directed the Chief of the Forest Service to identify grazing allotments 
that required NEPA (National Environmental Policy Act) analysis and to 
``establish and adhere to'' a schedule for the completion of that 
analysis. The end date established in the schedule was 2010. The 
Rescissions Act was needed given the Forest Service's challenge in 1995 
of trying to complete the NEPA analysis on most allotments, with 
approximately 50 percent of Forest Service grazing permits due to 
expire.
    The 2003 Consolidated Appropriations Resolution, Public Law 108-7 
(as amended by the 2003 Emergency Wartime Supplemental Appropriations 
Act) directed the Secretary of Agriculture to renew grazing permits for 
those permittees whose permits expired prior to or during fiscal year 
2003, as the Forest Service was behind the schedule established for the 
Rescissions Act and was dealing with pending lawsuits. The NEPA 
analyses will still have to be completed on these allotments and the 
terms and conditions of the renewed grazing permit will remain in 
effect until such time as the analysis is completed.
    The 2004 Interior Appropriations Act (P.L. 108-108) further 
directed the Secretary to renew grazing permits that expired or were 
transferred or waived between 2004 and 2008, and directed the Secretary 
to report to Congress beginning in November 2004, and every two years 
thereafter, the extent to which analysis required under applicable laws 
is being completed prior to the expiration of grazing permits.
    The 2005 Consolidated Appropriations Act (Public Law 108-447) 
further directed that for fiscal years 2005 through 2007, certain 
decisions made by the Secretary to authorize grazing on an allotment 
shall be categorically excluded from documentation in an environmental 
assessment or an environmental impact statement under NEPA. To be 
categorically excluded the following conditions would apply:

  <bullet> The decision continues current grazing management of the 
        allotment;
  <bullet> Monitoring indicates that current grazing management is 
        meeting, or satisfactorily moving toward objectives in the land 
        management plan, and
  <bullet> The decision is consistent with agency policy concerning 
        extraordinary circumstances.

    The total number of allotments that may be categorically excluded 
under this authority may not exceed 900.
    The Forest Service has continued to complete NEPA analyses on those 
grazing allotments that are listed on the Recessions schedule. As of 
September 9, 2005, approximately 3050 allotments have NEPA analysis 
completed. An additional 201 allotments are scheduled for completion of 
NEPA requirements in fiscal year 2005. Of this 201, there are 74 
allotments that have pending decisions that will utilize the legislated 
categorical exclusion for NEPA outlined above. The Forest Service 
remains committed to completing the NEPA analysis on the remaining 
allotments by 2010 without disrupting permitted livestock grazing 
activities. We will track our progress and report periodically to 
Congress.

                      GRAZING PERMIT EFFICIENCIES

    The Department testified previously before this Subcommittee that 
current decision-making procedures to authorize livestock grazing or 
other activities on rangelands administered by the Forest Service are 
inflexible, unwieldy, time-consuming, and expensive. For several years, 
the Forest Service has evaluated alternative procedures that would 
satisfy our legal obligations, provide the agency with management 
flexibility, shorten the decision-making time, and reduce the cost to 
the taxpayer associated with rangeland management decisions. The agency 
is continuing dialogue with our colleagues at the Bureau of Land 
Management and the Council on Environmental Quality (CEQ) to address 
the challenges of complying with NEPA in a timely and effective manner. 
In addition, the agency is working on methods of prioritization through 
the development and use of quantitative tools that assess rangeland 
health and sustainability by using indicators that are linked to 
existing monitoring data.

                 NEPA ANALYSIS AND RANGELAND DECISIONS

    This year the Forest Service set up guidance for the national 
forests and grasslands in order to comply with P.L. 108-447 when 
preparing NEPA analysis for allotments. This new authority will help 
the agency move forward in completing environmental analysis in an 
expedited manner on those allotments still remaining on the 1996 
Rescissions Act schedule.
    Currently, the Forest Service is in the process of updating and 
revising the Forest Service policy and direction in our grazing manual 
and handbook. The last major update occurred in 1985. New legislation, 
litigation, changing needs on the ground, and the need for consistency 
between field units have all shaped the need to update and clarify 
existing policy.
    In the future, we will propose, and offer for public comment, 
changes in the Manual and Handbook that we believe are needed to 
improve our management of grazing, discharge our stewardship 
responsibilities, and to ensure sustainable grazing opportunities for 
farmers and ranchers on national forests and grasslands. We intend to 
work closely with all affected parties to address policy issues that 
are identified, before a new Manual and Handbook are adopted.

                   EXPERTISE IN RANGELANDS MANAGEMENT

    Rangelands management expertise is necessary to fulfill our mission 
to manage National Forest System lands. The Forest Service has 
developed a strategy to address the loss of rangeland management skills 
and strengthen on-the-ground expertise. The Forest Service, working 
with other State and federal partners, has instituted a national Range 
School, that provides training sessions focusing on improving essential 
collaborative skills for managers, permittees, and other interested 
people; focusing on ecology, economy, and social issues regarding 
rangelands. The Forest Service has been working closely with the Bureau 
of Land Management, Natural Resources Conservation Service, Cooperative 
State Research, Education and Extension Service, the Society for 
Rangeland Management, and regional Forest Service leadership to present 
training sessions in 2006.
    A collaborative working group of Forest Service professionals, 
university professors and researchers are developing a specialized 
training for line officers and managers to be presented April 2006. 
This ``Rangeland Management for Line Officers'' course will ensure 
critical decision making accurately reflects an understanding of 
federal land ranching, rangeland science, and an appreciation for the 
vital role ranching plays in reducing the loss of open space and the 
environmental benefits that come from grazing.

                               MONITORING

    The ecological conditions of rangelands often affect the social and 
economic stability of many rural communities. To assure these lands are 
capable of providing sustainable products for future generations, the 
Forest Service monitors the ecological conditions of these lands 
against specific standards. Implementation and effectiveness monitoring 
are two types of monitoring that the Agency uses. Implementation 
monitoring is an annual measurement of rangeland resources, such as 
vegetation use, to assess environmental effects. Effectiveness 
monitoring is long-term (5 to 6 years) where rangeland resources are 
monitored to assess whether prescriptions and objectives set forth in 
Forest Plans, allotment management plans or other relevant documents 
are being met.
    The Forest Service has worked with industry representatives over 
the years to develop our implementation and effectiveness monitoring. 
In 2003 we signed a national Memorandum of Understanding (MOU) with the 
Public Lands Council (PLC) and the National Cattlemen's Beef 
Association (NCBA) for the implementation of a cooperative rangeland 
monitoring program. We continue to collaborate with our permittees in 
order to improve the quality and quantity of short and long-term 
allotment level monitoring on National Forest System rangelands.
    To further this collaboration the Forest Service, PLC and NCBA in 
April 2004 signed a joint letter which was delivered to Forest Service 
personnel and permittees requesting volunteers to establish pilots for 
monitoring under this MOU to facilitate the process and lead the way 
for others to follow. This is a great opportunity for both entities to 
collaborate on long-term goals and objectives for sustainable rangeland 
resources.
    Several National Forests and National Grasslands have established 
programs that encourage grazing permittees to conduct implementation 
monitoring in cooperation with the Forest Service. Permittees, in 
conjunction with the Forest Service, other Federal agencies, 
universities and rangeland consultants, have worked to develop 
monitoring programs.
    In the Southwestern Region, the Forest Service has developed a 
cooperative agreement with the University of Arizona focused on 
collaborative monitoring. The goal of the agreement is to utilize the 
Universities' expertise to assist in the development of agency 
monitoring strategies for rangelands. For example, the agreement with 
the University of Arizona will focus on improving monitoring data 
collection and analysis related to natural resource management; 
developing collaborative opportunities between the Forest Service and 
non-governmental entities and organizations to monitor the ecological 
trends of national forest rangelands in Arizona; establishing uniform 
monitoring protocols that everyone understands; enhancing data 
collection processes, training, and reporting methods; and increasing 
the number of national forest allotments being monitored.

                                DROUGHT

    We continue to work with our partners in the livestock industry to 
improve coordination and communication, as we mitigate effects that 
drought has had on rangelands in the West. The agency recognizes that 
ranching is an important component of the economies of many western 
rural communities.
    We have actively coordinated drought management with Federal, 
State, and local government agencies and officials. The agency is 
actively participating on national, state, and local drought task 
forces coordinating drought relief to our permittees. We are working 
closely with industry representatives to provide up-front information 
to facilitate local communications and work together to resolve 
resource issues.
    On Forests and Grasslands, we have managed drought impacts on a 
case-by-case basis. Local managers are communicating as early as 
possible with permittees so they are informed and have enough time to 
implement temporary changes or a long-term strategy. We continue to 
coordinate with universities, other federal agencies, and user groups 
to best address the concerns at the local level.

                            INVASIVE SPECIES

    A threat to sustainable use, proper management of our rangelands 
and to our permit renewals and monitoring efforts, is the ever-growing 
presence of invasive species. The Chief of the Forest Service has 
targeted invasive species as one of four most significant threats to 
our Nation's forest and rangeland ecosystems. It has been said invasive 
species are a ``catastrophic wildfire in slow motion.'' They are 
threatening the national grazing interest. Thousands of invasive 
plants, insects, and other species have infested many hundreds of 
thousands of acres of land and water across the Nation, causing massive 
disruption to ecosystem function, reducing biodiversity, and degrading 
ecosystem health, including rangelands. Add great economic loss to 
massive ecosystem impacts and that is the threat we have.
    The Forest Service has taken steps to improve its ability to 
prevent, detect, control, and manage invasive species and to 
rehabilitate and restore affected rangelands. We are working 
strategically with our scientists, managers, and partners. We now have 
a National Strategy and Implementation Plan for Invasive Species. It 
outlines both short and long term goals. We are working with our 
partners to streamline procedures so actions can be taken quickly 
before invasions become widespread. We call this early detection and 
rapid response. This is a national initiative that supports local 
partnerships fighting invasive species. We have a national website 
(http://www.fs.fed.us/invasivespecies) available to the public which 
provides information and links to many other sites focused on invasive 
species. In 2006 we will host a national conference for managers and 
partners to improve our efforts and build capacity to combat invasive 
species.
    In FY 2004 we treated over 100,000 acres for invasive weeds, 
greatly surpassing our goal of 67,438 acres. In FY 2005 our goal is to 
treat about 75,000 acres and indications are we will surpass this 
estimate.

                                SUMMARY

    Thank you for the opportunity to appear before you today. We are 
committed to making maximum use of our legislative authorities and 
policy direction in order to sustain the health, diversity and 
productivity of the Nation's forests and grasslands to meet the needs 
of present and future generation.
    This concludes my statement. I would be pleased to answer any 
questions you may have.

    Senator Craig. Fred, thank you very much.
    We've been joined by two of our colleagues, Senator Salazar 
and Senator Byron Dorgan.
    Ken, do you have any opening comments you would want to 
make before we turn to these gentlemen for questions?

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Chairman Craig, the only thing I wanted to 
say is that I fully understand and respect the great importance 
of grazing on our public lands both with the Forest Service and 
BLM, and obviously for those of us from the West, it's not only 
part of our tradition, but it's also something that we want to 
continue. So I look forward to testimony from the witnesses. 
Thank you, Mr. Chairman.
    Senator Craig. Senator Dorgan, any opening comments?

        STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR 
                       FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much. I regret 
I didn't hear your testimony, I've been down in the 
Appropriations Committee mark-up on the Defense Department 
Appropriations bill. Mr. Norbury, are you familiar with the 
controversy that erupted in North Dakota over the interim 
directives with respect to leasing and other issues on the 
grasslands in North Dakota?
    Mr. Norbury. I have read newspaper accounts on that, and 
I've talked to people who have been personally involved in that 
controversy.
    Senator Dorgan. On July 19, you signed, I believe--or 
signed off rather on the original interim directives that 
really caused a firestorm of protest out there. I held a 
hearing in Bismark and it was a packed house, and we had both 
the Regional Forester from Montana, and the Grasslands 
Supervisor in North Dakota. And both of them told me at the 
hearing that they had not read the interim directives that had 
been put out, which surprised me because the interim 
directives, among other things, would have prevented a practice 
that has gone on at great lengths in North Dakota in the 
grasslands and that is the leasing practice of base units. And 
this interim directive would have shut that down without 
consultation with the ranchers, without even the knowledge of 
the Regional Forester, or the local Grasslands Supervisor. You 
actually signed that, or rather you approved it, I guess. And 
here's the document which says, approved by Fred Norbury. So 
how does that happen that in the Service this interim directive 
goes out and, by the way, when it goes out we're told that the 
rules have now changed. The rules have changed, this is not 
notifying people. The rules have now changed and the Regional 
Forester doesn't know how it happened, hasn't read it, and the 
local grasslands person hasn't read it. The ranchers haven't 
been consulted. How does all that happen?
    Mr. Norbury. Well, the directives that are being replaced 
are 20 years old, and the process to write new directives has 
been going on for a number of years. I was told that it had 
been 7 years of staff work trying to redraft the entire 
package. If you've seen the entire package, you've seen that 
it's many, many, many pages. It stacks 6 or 8 inches high. 
Because it's a comprehensive attempt to update our directive 
system to incorporate all the things that have happened both in 
terms of science and in court rulings over the past 20 years.
    So the directives rest upon the work of a very large number 
of people within the Forest Service. Clearly the process that 
produced those directives could have been better. We have not 
done as good as we could have done to identify exactly what the 
changes were and make sure that everyone understood what those 
changes were and felt like they had ample opportunity to 
comment on those changes. And once that became apparent to us, 
that's why we rescinded those directives. We rescinded the 
entire package, and we will do better. We will make an extra 
effort to make sure that everyone who has a stake in this has a 
chance to know exactly what's proposed, and has a chance to be 
heard on their views on those proposed changes.
    Senator Dorgan. Well, Mr. Norbury, you did rescind them on 
August 16. And when you say ``can do better'', what concerns me 
is that the Forest Service is a big bureaucracy, a really big 
bureaucracy. You probably know a lot about trees, but in my 
judgment the Forest Service knows almost nothing about 
grasslands.
    I pushed, and pushed, and pushed and pushed for a long 
while to get a supervisor in North Dakota that knows about 
grasslands. Because what the Forest Service tries to do is put 
a template over grassland management that reflects their 
knowledge of trees. But grasslands aren't trees. And so we 
finally got a grassland supervisor in North Dakota for the 
purpose of trying to make sure that you don't think that these 
are forests. These are not forests, they are grasslands.
    And yet when you review all of these--and you're quite 
correct, some of these are 20 years old, these rules. When you 
review them, there's no consultation with the ranchers to any 
degree, you put out directives and the Regional Forester 
doesn't know it, the local person doesn't know it, and when you 
say, ``we can do better'', I hope that's a euphemism for ``we 
screwed up''. Because clearly somebody screwed up here--using 
the vernacular.
    This is not the way to do business. Now, can you tell me 
how you're going to go forward? Because you issued the rules, 
that caused a stink, I held a hearing, and you then rescinded 
the rules. And it was embarrassing for the folks who came to 
that hearing. They worked for you all and they had to admit 
they didn't know anything about this. And despite the fact that 
apparently it was supposed to have gone through their hands. So 
what are you going to do going forward at this point with 
respect to these issues, because it will affect whether some 
people who are engaged in grazing in western North Dakota, 
which, by the way, is fast becoming a wilderness area?
    I've got all these folks asking me to support wilderness 
designations. I say, I don't need to have any designation out 
in western North Dakota, it's becoming a wilderness area. I 
want exactly the opposite to happen, I want ranchers to be able 
to work out there and be able to graze cattle and to keep 
ranching, and these rules, as you know, would have forced some 
of these folks off the land, because the only way you can get 
young people started in those circumstances is to lease base 
property. So what are you going to do now, now that that's been 
rescinded?
    Mr. Norbury. Well, the first step is going to be what I 
would regard as an essential point of completed staff work, 
which is to do a very, very careful, side by side comparison of 
the package we have now, and the proposed package, to make sure 
that we have identified all the changes that people might get 
interested in. We're going to get some fresh eyes involved in 
reviewing these pages. And we want to make--there are some 
changes that people who've been working on the package might 
not regard as significant that someone with fresh eyes might 
spot as significant. We want to make sure that we get all that 
out on the table.
    The second thing we want to do is actually go talk to 
people about how they would like to be involved. Now this is a 
more complex issue than it might appear. We have grazing on 90 
million acres of the National Forest System. And we have 
grazing interests throughout the West and actually some in the 
East as well. So there's a very, very large community of people 
that have a stake in this outcome. And we want to talk to them 
about what they think would be the best way for them to work 
with us. In the classic model, we put something out, we 
published it for comment, people send in written comments, then 
we analyze them and add them and categorize them and all that, 
and think about them, and then we make a final decision. And 
that's the minimum requirements of the Administration 
Procedures Act. We think, in this case, we need to go beyond 
that.
    Senator Dorgan. But that wasn't done, was it, in this case?
    Mr. Norbury. There had been conversations over the long 
number of years that this package had been in preparation.
    Senator Dorgan. No, no, that wasn't done in this case, you 
know that.
    Mr. Norbury. We are looking for a broader involvement, more 
of a collaborative involvement next time around. And the 
structure and the collaborative involvement will depend a lot 
upon what the people affected by this package want to do. And 
so we'll have those conversations with them. Once we've done 
that, then we will be in a position to describe exactly how 
that process is going to unfold.
    Senator Dorgan. My colleague from Idaho has been very 
patient. It normally would be my colleague from Idaho that's 
beating up on an agency here. I've seen him do that from time 
to time. Now I'm the one that is furious with the bureaucracy 
because you still haven't suggested that what you did was 
wrong. You didn't go out and consult. You issued an interim 
directive that said it's effective immediately and now you've 
had to rescind it. I don't like the way bureaucracies work when 
they do that.
    And as you consult with everybody--I have a sense of 
history, and you probably understand, if you don't go look at 
it. The Bankhead-Jones Act, by which most of that land in 
western North Dakota was gotten by the Federal Government, and 
the conditions under which the Federal Government took over 
land from bankrupt folks out there that had to get rid of it, 
it was going to be used for agriculture, and that land is 
supposed to continue to be grazed, and we don't want people 
putting handcuffs around ranchers out there who are trying to 
make a living. So that's why I'm a little irritated.
    I just came to the hearing, Mr. Norbury, because your name 
was on this and I hope you do better. I mean you used that 
term. I would use other terms. But we can't have the agency 
doing this, and surprising even your own employees in a way 
that would disadvantage a lot of ranchers that are working real 
hard to try and make a living. So that was therapeutic for me 
to say.
    And, Mr. Chairman, I feel better now, but I'll feel a lot 
better once you get through this process and have new rules, 
after the old ones are rescinded, and we have new rules that 
make sense, rules that I can support and ranchers feel are 
fair.
    Senator Craig. Doctor Craig will send you a bill. But I do 
appreciate your passion, and I think everybody's frustration on 
the ground when the process gets ahead of where it ought to be.
    Fred, let me stay with you, because you just mentioned 
something in your testimony that is a frustration to all of us. 
Last week, Judge James Singleton ruled that you will not be 
able to utilize categorical exclusions to implement forest 
plans related to projects. Is it true that the categorical 
exclusions that this Congress authorized to expedite the 
grazing permit renewal will be impacted by that?
    Mr. Norbury. Absolutely. The categoric exclusions that are 
authorized for the NEPA for allotment measurement plans are 
impacted and it's far broader than that. It affects the 
legislative categoric exclusions for oil and gas that was in 
the energy bill this year. It effects the silviculture 
treatment categorical exclusion that was in the Healthy Forest 
Restoration Act, as well as all the categorical exclusions that 
are in our existing agency NEPA procedures. The effects of this 
are going to be far reaching on people who make use of the 
National Forest. One example I can give you is the Willamette 
Pass Ski Area in the State of Oregon. It's a small ski area, it 
has two lifts. One of their lifts was damaged by an avalanche 
last year. They were trying to repair that lift so they could 
get back into operation this winter, operating under a 
categorical exclusion, and we had to tell them to stop. They're 
in a real quandary right now, because they basically think they 
have 2 weeks before the snow flies and they're not able to 
repair their lift.
    We face similar dilemmas with firewood gathering and with 
mushroom gathering. We have a film company that's making a 
movie that we've told are operating under a categorical 
exclusion, and we've told them they're going to have to stop.
    Senator Craig. You mean a lift that was preexisting, under 
a special use permit, was damaged by an avalanche and you used 
a categorical exclusion to allow them to go in and repair it? 
This is not a new lift, this is not a new run development?
    Mr. Norbury. That's right.
    Senator Craig. Why would you even do that? Why couldn't 
they be allowed to repair based on an existing facility and an 
existing permit?
    Mr. Norbury. Well----
    Senator Craig. Under maintenance.
    Mr. Norbury. All of our facility repairs are done under 
categorical exclusions. That's a routine use of categorical 
exclusions. The way the law is written we're basically--anytime 
we're making a decision that involves manipulating the physical 
environment we have to either do an EIS, an EA, or conclude 
that it can be excluded from documentation under a preexisting 
category established in procedures.
    So approving the repair under a categorical exclusion is 
routine and a long standing agency practice. It wasn't a 
problem until we had to face the consequences of a recent court 
decision.
    Senator Craig. What is the current backlog of grazing 
permit renewals and how will Judge Singleton's decision impact 
the Forest Service's ability to renew these permits then?
    Mr. Norbury. Well, it's going to stretch out the process. 
We have slightly more than 3,400 to go, according to my 
arithmetic. Basically, when you allow an appeal and if--you've 
got to allow a comment period, which is a minimum of 30 days, 
then the appeal emerges, then there's another 105 days to 
resolve the appeal. So potentially it could add 135 days to 
each and every one of the permit renewals that we're going to 
do under the legislated category. As I mentioned, the 
legislative cap was 900, so potentially as many as 135 days to 
each and every one of those.
    Senator Craig. While this is not a grazing question, how 
will Judge Singleton's decision affect the Forest Service's 
ability to undertake needed hurricane cleanup work in the Gulf 
States for us?
    Mr. Norbury. At the moment, we don't think that the 
decision will affect the cleanup. We've been able to work with 
the Council on Environmental Quality, and we think that 
everything we need to do in the way of hurricane response can 
be done under our existing authorities and in cooperation with 
the Council on Environmental Quality and will not get stopped 
by the need to offer [inaudible] opportunities.
    Senator Craig. Well, we'll see if we can work with you on 
our dear Judge's decision.
    Jim, it appears the BLM is continuing to make real progress 
in meeting its objective of eliminating the backlog of permits 
by 2009. Once BLM has addressed its backlog are you confident 
we won't get in this bind again?
    Mr. Hughes. Yes, we are. Mr. Chairman, I think a couple of 
things. We now have a system in place where we've identified 
those permits that need a closer look, and we've prioritized 
which areas we have problems with. This helps us sort of divvy 
up the workload a lot better than when this thing first hit us. 
I think we've learned how to better approach this and in many 
cases we can use somewhat of a template, if there's really no 
change in use out there, to renew these permits. Then we also 
have the ability to put folks in there where we do have the 
problems. As we get more information, through our monitoring 
program, it will make that renewal process go much smoother, 
because we know what's out there.
    Senator Craig. Well, I hope somehow we can effectively 
streamline and legitimately deal with our environmental 
concerns, and at the same time--as I mentioned in my opening 
comments--be timely in these processes. Obviously we've created 
a very complicated process for the land manager, so spoken to 
by Fred, your obvious concerns. Fred, you mentioned in your 
opening comments about some of the range conditions changing 
because of moisture, I suspect my State of Idaho this spring 
produced one of the greatest grass years on record, or nearly 
that. And if you had walked across that range a year ago versus 
this year, you could have been absolutely convinced that it 
doesn't take 2or 3 years to recover. It can be done almost in 1 
year. That was certainly the case, yet we have seen very little 
flexibility on the part of the Forest Service, in some permit 
considerations, a little flexibility of time. There's still 
been a substantial rigidity even though grass was hitting the 
stirrups of the horses and cattle couldn't be found because 
they were laying down. I mean it was a phenomenal grass year by 
every measurement. And I must tell you that I'm tremendously 
frustrated when there can't be a little flexibility on the 
margin that deals with some of our livestock needs under those 
kinds of circumstances.
    High costs of fuel today are obviously creating an 
environment where cost of production is substantially higher, 
when we talk of moving cattle off a range on a lockstep basis 
because that's what the regulation says. And I guess my 
frustration is, where are the range managers? They're in the 
office buildings doing EIS's, they're not out on the ground 
checking things. And so we've got to walk down this road, when 
in fact, as I said, if any of you had spent time out on the 
range a year or two ago, and then this year, you would have not 
felt you were in the same place, under the conditions that we 
fortunately experienced in certain areas of the West.
    I don't know what to say to you other than I think all of 
us under certain circumstances were increasingly frustrated by 
an agency that seemed to not have viewed the condition but only 
have read the print. And I felt that in certain circumstances 
some of our range managers had some discretion; is that not 
true?
    Mr. Norbury. First let me say that most of the people who 
work for the Forest Service didn't start working for the Forest 
Service because they wanted to write NEPA documents. Most of 
them started working for the Forest Service because they liked 
the outdoors and they wanted to work outdoors. And a lot of 
them feel very frustrated at the amount of time they're having 
to spend in the office preparing thicker and thicker 
documentation as the years pass, and their inability to get 
away from the computer screen and go out and experience 
firsthand those things they love and that really are their 
fundamental passion.
    We've worked hard to try to increase the flexibility that 
our range managers have. And one of the most important things 
that we've done is the way we've restructured the NEPA process 
that they're going through. I'll give you an example.
    It used to be when we did the NEPA on allotment it would 
specify the on/off dates. And so--because the dates were 
specified in the NEPA document--if you were going to vary from 
those dates, then you had to make a new NEPA decision, which 
took you back into all those onerous NEPA processes again. What 
we're trying to do now is use an adaptive measurement approach 
where we wouldn't specify the on/off dates, we would specify 
the ecological conditions that we're striving for and give the 
managers a lot more flexibility to choose the practices that 
would move the ranchland toward the desired ecological 
conditions.
    As we get more and more NEPA completed and more and more of 
our allotment measurement plans modernized, they're going to 
have more and more flexibility to adjust year to year to those 
fluctuations.
    The third point I would make is that my experience has been 
that range issues are really variable from place to place 
around the country. Some places you're dealing with perennial 
vegetation, and some places annual vegetation. Soils are 
different. The grazing practices are different. So we encourage 
our range managers to take a problem-solving approach and to do 
their best to work with the permitees in ways that address the 
problems that they bring to our attention.
    A more recent example, of course, is the rising fuel prices 
which have made it more difficult, or more costly at least, to 
move stock around in trucks. And so you always have to think 
about, is there some way that we could work with the permitee 
to reduce the cost, because many of these people have 
operations that are at the financial margin. But the solution 
to those things really are site specific, because trucking from 
pasture to pasture may occur in some places but it doesn't 
occur everywhere. So the solution needs to be different from 
place to place, and that's why we are encouraging flexibility 
and are encouraging flexibility and are encouraging a problem-
solving approach.
    Senator Craig. Well, all that you've said I think is true, 
but it takes people on the ground monitoring. If you're going 
from date specific to site specific and condition specific, 
somebody's got to be out there monitoring and I'm not sure 
that's getting done as well in some instances as it should. I 
mean if you were monitoring this year, there would have been 
flexibility. And in some instances, from some of our permitees, 
we've sensed a tremendous rigidity. And like I said, when they 
said, we couldn't remove the cattle because we couldn't find 
them, they were hidden in the grass, that's a phenomenal 
statement, but it was a reality in some circumstances.
    And you're right to assume cost and trucking and all of 
that, but you know it's that kind of reasonable flexibility and 
monitoring I think that is site specific and does recognize all 
of the conditions you've talked about that are variables on our 
Western rangelands, and so you know, all I can say is I hope 
the Forest Service continues down this road. You've got a 
backlog to get beyond, and 2010 is approaching, and we'll watch 
very closely and stay with you and attempt once again in some 
form to gain you some flexibility.
    Obviously, the Judge has spoken. Congress once spoke and 
we'll try to speak again, in a slightly different language that 
maybe he doesn't understand as clearly. And maybe that way we 
can dodge his rulings. And it is in no way to dodge 
environmental concerns. It's to allow management to go on. 
Environmental concerns are at risk when that doesn't happen. 
And so we had hoped in certain circumstances that categorical 
exclusions would offer you the tools that you needed. They 
seemed to be moving us in the right direction until the Judge 
spoke.
    Gentlemen, thank you very much for your time before the 
committee. We'll stay tuned to you, and please you stay tuned 
to us, and we'll see if we can't resolve some of these problems 
as we move down the road.
    Gentlemen, thank you very much for being with us. Mike 
Byrne, chairman, Federal Lands Committee, the National 
Cattlemen's Beef Association. Will, it's good to see you. Will 
Whelan, the Idaho director for government relations for the 
Nature Conservancy. And Dr. Rick Knight, wildlife ecologist, 
Colorado State University, College of Natural Resources. 
Gentlemen, again, thank you very much for being here today.
    Mike, we will start with you. If you'll please turn your 
mike on, let's visit.

STATEMENT OF MICHAEL BYRNE, PRESIDENT, PUBLIC LANDS COUNCIL, ON 
      BEHALF OF THE NATIONAL CATTLEMEN'S BEEF ASSOCIATION

    Mr. Byrne. Okay. Mr. Chairman, thank you for the 
opportunity to discuss the issues facing the Western ranchers 
throughout the United States. My name is Mike Byrne, and I am a 
cattle rancher from northern California and southern Oregon, 
the Klamath Basin, and I'm also president of the Public Lands 
Council, a national organization representing the interests of 
public lands ranchers. My brother Dan and I are fourth 
generation ranchers in the same area.
    The Public Lands Council represents sheep and cattle 
ranchers in 15 Western States, over approximately 300 million 
acres.
    Today's ranchers represent some of America's last living 
embodiments of true environmentalism. The American public and 
the ranching industry benefit tremendously from the continued 
economic vitality of the public land ranching industry. As we 
look to the future of public lands ranching throughout the 
West, the PLC and NCBA is concerned about a number of important 
issues.
    National Environmental Policy Act. The Public Lands Council 
owes a debt of gratitude to this Congress for its attention to 
grazing issues on Public Lands. In recent years, Congress has 
made more funding available for monitoring of allotments, has 
ensured that permit renewals would not be set aside because of 
the agencies' inability to complete their responsibilities 
under the National Environmental Policy Act, and has worked to 
restore a balance between wild horses and burros and other 
multiple uses. For these things, we applaud you.
    But there is much work yet to be done. Grazing permit 
administration remains a challenge that trips up the agencies. 
As you are no doubt aware in your own State, in the Western 
Watershed Project versus the BLM, the court enjoined grazing on 
several hundred thousand acres of land in southeast Idaho, 
involving almost 100,000 animal units, and 28 allotments 
because the agency failed to meet the basic requirements under 
NEPA. In the view of our members, a significant portion of the 
grazing industry in southeast Idaho, and the families and 
communities that depend on grazing, it should be overturned. We 
would like the same protection as we have in permit renewal. 
Because of the agency's inability to perform, the permitee 
should not bear the brunt of this problem. It should fall back 
to the agencies.
    This cannot be the standard of business in the Government.
    Part of the agencies' challenge in completing environmental 
documentation can be addressed by more closely tailoring the 
paperwork requirements to the actual environmental profile 
presented by grazing or an activity ancillary to grazing.
    We have an idea that we can try to tailor more of these 
environmental documents to ones that are already done, instead 
of doing them over and over, being redundant. As you have heard 
from both agencies, there's thousands and thousands of 
allotments, and thousand of grazing permitees, and we feel that 
the same analysis is going on over and over again. We should be 
able to tier onto previous ones, put in the different 
documentation, let the public speak as they may and then let's 
get on with the job and not do it over again.
    We also believe more CE's should be available. As you've 
already alluded to, there are some court problems, but when you 
fix it, make it broad enough that we can use very many more 
CE's. I testified in 1998 in the House in front of Don Young, 
but the same thing holds true. Why should we analyze an 
activity that's gone on for decades, relatively unchanged, over 
and over again and spend the capital, both human and resources, 
when we're going to come up with the same conclusion?
    National Historic Preservation Act. This is also another 
law which causes great concern, because it precludes positive 
projects from taking place on the public lands. It is 
administered very, very differently between agencies in the 
same geographical area where different agencies say you can do 
some things and you can't do other things. Some archaeologists 
feel it's real significant, where other ones feel that it's 
been studied and we can move it forward. We'd like your help on 
that.
    Wild and Scenic Rivers. Americans are rightfully proud of 
the many beautiful rivers that course through our Nation. 
Unfortunately, as things so often happen, management of these 
rivers, and particularly those with segments that have been 
designated under the Wild and Scenic River Act, has brought 
harm to other segments in society. As you know in Oregon, there 
have been suits brought on the Wild and Scenic River Act on the 
Donner und Blitzen, the John Day, the Malheur, and the Owyhee 
Rivers. More than 50 operations are affected by this.
    I know you're also aware that the Oregon Omnibus Wild and 
Scenic Rivers Act was authored by people from Oregon. Senators 
Mark Hatfield and Bob Packwood, as well as Bob Smith and Peter 
DeFazio, all wrote that after this law was passed it would not 
have adverse effect on grazing, and much to their disdain, it 
has had an effect 100 percent of the times it's been challenged 
in the court. Because the standard is to enhance the quality of 
the river, even though the grazing occurred before they were 
Wild and Scenic, and therefore it's only logical that the 
grazing helped create the value that the people wanted before 
they designated it. And now they're trying to preclude that use 
and that was not the desire and intent of Congress.
    Wilderness Study Areas. When Wilderness Study Areas were 
put in, they were mandated by Congress to be looked at for 10 
years and they were supposed to be decided on whether to be 
included in wilderness or to be let go. These areas are not 
being let go as required by law. And they are what we call de 
facto wilderness, because they're managed as wilderness, even 
though they haven't been designated as wilderness. We ask your 
help in that area.
    Bureau of Land Management Grazing Regs. We just ask that 
you monitor the process and help get them out as fast as you 
can.
    Endangered Species Act. As you know, tomorrow's a big day 
in the House. It's a No. 1 priority for Public Lands and 
National Cattlemen. Federal lands is causing great expense to 
our people. Right now the wolf issue is very hot and we want to 
sort of have the same protection, that when the United States 
feels it needs to reintroduced wolves it should not be at the 
expense of the people who are working the land, and have worked 
it for centuries. The North Dakota situation was extremely 
troubling to our membership. It's already been discussed, but 
we're watching it carefully.
    Also applicant status, it seems to be evolving, but we 
would like your help in making sure that when there are 
significant decisions, that us as land managers and the grazing 
permitees are allowed to be at the table.
    I would like to conclude at that point, and take any 
questions that you may have. Thank you.
    [The prepared statement of Mr. Byrne follows:]

 Prepared Statement of Michael Byrne, President, Public Lands Council, 
         on Behalf of the National Cattlemen's Beef Association

    Mr. Chairman and members of the Subcommittee, thank you for this 
opportunity to discuss the issues facing ranchers throughout the 
western United States. My name is Mike Byrne, and I am a cattle rancher 
from northern California and President of the Public Lands Council, a 
national organization representing the interests of public lands 
ranchers. My brother Dan and I are fourth generation ranchers in the 
same area.
    The Public Lands Council (PLC) represents sheep and cattle ranchers 
in 15 western states whose livelihood and families have depended on 
federal grazing permits dating back to the beginning of last century. I 
am also here today on behalf of the National Cattlemen's Beef 
Association (NCBA), the trade association for America's cattle farmers 
and ranchers, and the marketing organization for the largest segment of 
the nation's food and fiber industry. Both PLC and the NCBA strive to 
create a stable regulatory environment in which our members can thrive 
and continue to produce the safest and most nutritious meat in the 
world.
    The federal government manages over 450 million acres of land, and 
nearly 300 million acres are classified as rangelands. Since the mid-
19th Century, ranchers have depended on the vitality of America's 
rangelands for their survival, and as a result, ranchers have developed 
an innate love for the land and personal stake in its preservation. 
Nearly 40% of all cattle raised in the west spend some of their lives 
on public land allotments. The public lands are critical to the 
functioning of the livestock industry in the west. Environmental 
services provided by ranching operations include open spaces, wildlife 
habitat, clean air, clean water, and fire and weed control.
    Today's ranchers represent some of America's last living 
embodiments of true environmentalism. The American public and the 
ranching industry benefit tremendously from the continued economic 
vitality of the public land ranching industry. As we look to the future 
of public lands ranching throughout the west, the Public Lands Council 
is concerned about a number of important issues.

                   NATIONAL ENVIRONMENTAL POLICY ACT

    The Public Lands Council owes a debt of gratitude to this Congress 
for its attention to grazing issues on Public Lands. In recent years, 
Congress has made more funding available for monitoring of allotments, 
has ensured that permit renewals would not be set aside because of the 
agencies' inability to complete their responsibilities under the 
National Environmental Policy Act (NEPA), and has worked to restore a 
balance between wild horse and burros and other multiple uses. For 
these things, we applaud you.
    Much work remains to be done. Grazing permit administration remains 
a challenge that trips up the agencies. Our understanding is the 
agencies are not processing enough permits to meet the schedule 
Congress anticipated when it enacted legislation to postpone the 
deadline for completing NEPA for permit renewals. When it tries to do 
the NEPA it also fails with sometimes disastrous consequences for our 
industry.
    In the recent case of Western Watersheds Project versus the Bureau 
of Land Management, the court enjoined grazing on several hundred 
thousand acres of land in southeast Idaho, involving almost 100,000 
animal unit months, and 28 allotments because the agency failed to meet 
basic requirements under NEPA. In the view of our members, a 
significant portion of the grazing industry in southeast Idaho, and the 
families and communities that depend on it, was overturned through the 
court injunction because the government failed to complete its 
paperwork.
    This cannot be allowed to be the standard of business for the 
government. Businesses, families, communities cannot fail because the 
government cannot complete paperwork that does little to affect 
conservation on the ground, and certainly adds little to a ranching 
operation. The Public Lands Council strongly supports the multiple use 
sustained yield of public lands and the related consideration of 
environmental factors in processing grazing permits. We also strongly 
believe that a more sensible balance must be struck between 
environmental paperwork and actual conservation as this dynamic relates 
to grazing.
    Part of the agencies' challenge in completing environmental 
documentation can be addressed by more closely tailoring the paperwork 
requirements to the actual environmental profile presented by grazing 
or an activity ancillary to grazing. For example, it seems irrational 
to produce full-scale NEPA documentation for longstanding continuing 
activities that have long-ago made their imprint on the landscape. Once 
the environmental baseline has been established in environmental 
analysis, and no new information emerges, what sense does it make to 
spend scarce federal resources on additional NEPA documentation? We 
strongly urge this Committee to consider enacting legislation that 
provides for categorical exclusions to be available for such classes of 
grazing activities.
    We also believe that categorical exclusions should be made 
available for range improvements such as installation of fencing or 
water facilities. These activities have a minimal impact on the land 
but can play a critical role in putting in place a well-managed grazing 
program resulting in important benefits for the resources.

                   NATIONAL HISTORIC PRESERVATION ACT

    Similar issues arise with the intersection of grazing with the 
National Historic Preservation Act (NHPA) as with NEPA. Federal land 
managers have used the NHPA to block or significantly delay grazing in 
areas where grazing has taken place for years and where no cultural 
artifact of any significance has ever been identified.
    A significant part of the land on which my cattle run have been 
overtaken by invasive juniper trees. These trees turn grasslands into 
fields of dirt eliminating habitat for wildlife, and forage for cattle. 
Removal of junipers is considered to be a key practice for helping to 
restore habitat for the sage grouse. Juniper encroachment on western 
landscapes is of epidemic proportions. Again, NHPA has been invoked to 
block my effort to clear the junipers from my federal allotments. All 
Americans appreciate the importance of preserving our cultural 
heritage. Still, ranchers and undoubtedly most Americans would have a 
hard time understanding how this Act can be used to block activities 
that would clearly benefit the resource, particularly in the absence of 
any information indicating that cultural significant resources are 
present in the area proposed for juniper clearing.

                         WILD AND SCENIC RIVERS

    Americans are rightfully proud of the many beautiful rivers that 
course through our nation. Unfortunately, as things so often happen, 
management of these rivers, and particularly those with segments that 
have been designated under the Wild River and Scenic Act, has brought 
harm to other segments in society, in this case the state's rural 
ranching communities. A better balance between ranching and river 
protection needs to be struck under the Act.
    The Wild and Scenic River Act protects existing uses along 
designated river corridors, such as grazing. However, the Act also 
requires these existing uses to protect and ``enhance'' the values for 
which the river corridors were designated under the Act. PLC and NCBA 
believes that properly managed grazing can be compatible with 
maintaining healthy river corridors. Many of the rivers currently 
designated achieved their status with years of grazing on their sides.
    Unfortunately, as interpreted by the courts, the ``enhance'' 
standard in the Act poses a virtually impossible hurdle for grazing to 
meet. This is a national issue in scope as there are more than 1.2 
million acres included in the Wild and Scenic River system in the 
Forest Service and Bureau of Land Management land throughout the west. 
Very roughly, it has been estimated that permitted grazing may occur on 
one-third of these acres. In each instance in which environmentalists 
have brought suit challenging grazing management plan for corridors 
along rivers designated under the Act, grazing has been eliminated.
    In Oregon alone, environmentalists have brought suit challenging 
grazing under the Wild and Scenic River Act on the Donner and Blitzen, 
the John Day, the Malheur, and the Owyhee Rivers. More than 50 
operations ran cattle along the subject area of the Donner and Blitzen, 
Owyhee, and Malheur Rivers, involving hundreds of people if you 
consider that each operation often consisted of several different 
families. Elimination of these ranch operations means the elimination 
of a way of life that has been in place for generations in many cases. 
Without the ranches and their economic activity, the local communities 
obviously suffer as well, and ultimately the fabric of life in rural 
Oregon and throughout the west.
    The original congressional sponsors of the Oregon Omnibus Wild and 
Scenic Rivers Act certainly believed grazing would continue in the wild 
and scenic river corridors and communicated this belief to the local 
ranching community. Congressman Bob Smith explained that he was seeking 
to ensure the maintenance of the grazing status quo along the river, in 
a letter to Senator Mark Hatfield dated August 29, 1988. Congressman 
Peter DeFazio wrote that ``grazing and Ag practices are fully protected 
under the Act,'' in a letter dated September 28, 1988. Senator Hatfield 
wrote on October 3, 1988, that grazing under the Oregon legislation 
would be allowed ``to the extent currently practiced.'' Senator Bob 
Packwood wrote on January 13, 1989, to assure a constituent that 
grazing ``will not be affected by this [new] law.''
    PLC and NCBA ask this Committee to bring a better balance between 
grazing and river protection to the Wild and Scenic River Act in line 
with the expectations of congressional authors of wild and scenic river 
legislation for Oregon. The people whose lives are rooted in rural 
Oregon deserve the respect and attention of this body. The law should 
prevent degradation of river values. It should also prevent degradation 
and harm to rural families and communities in Oregon and throughout the 
west. We would be pleased to work with the members of this committee to 
bring a better balance to the Act.

                         WILDERNESS STUDY AREAS

    PLC and NCBA understands, even if we do not support, the interest 
in part of the public in creating new wilderness areas in the west. As 
much as we oppose the creation of additional areas removed from 
multiple use management, we even more oppose the way wilderness study 
areas are administered. It is a fundamental abuse of the law and should 
be stopped.
    Federal agencies law provides for the designation of wilderness 
study areas for periods of ten years after which the administration is 
to make a recommendation to congress whether to establish a wilderness 
in that area. In practice, once an area has been designated for study, 
it is managed as a de facto wilderness past the time limit on the study 
period.
    If Congress intends to restrict access to still another class of 
lands, it should debate the issue and pass a law to this effect. Until 
that time, the authority to create study areas suggests that the 
appropriateness of creating a new wilderness area will be studied, and 
then at some point a decision will be made whether to do so or not. The 
law needs to be clarified as to Congress' intent for the treatment and 
disposition of these areas. We also ask Congress to release those areas 
for which the study periods have expired.

             BUREAU OF LAND MANAGEMENT GRAZING REGULATIONS

    We are grateful to the BLM and this administration for considering 
grazing in a systematic manner and nearly completing grazing 
regulations that help restore the balance of multiple uses on public 
lands. As are many, we are concerned with the delay in their issuance. 
We urge this Committee to monitor the situation and do all it can to 
ensure the regulations are issued as expeditiously as possible.

                         ENDANGERED SPECIES ACT

    The number one resource priority for PLC and NCBA federal lands 
members is to reform the Endangered Species Act. Livestock producers 
are concerned with minimizing the red tape associated with species 
protection and maximizing conservation efforts on the ground. We would 
like to see a greater focus on the recovery of species. If a species 
must be put on the list, there should be at least a concerted effort 
made to identify the criteria needed to recover the species and then 
take them off the list. We want these efforts to be based on reliable 
information, not the biases of individual federal officials.
    A significant effort has been made to pass ESA legislation in the 
House. We will learn tomorrow whether this effort succeeds. The effort 
in the Senate has moved at a slower pace. Anything the members of this 
Committee can do to speed the process in the Senate will be greatly 
appreciated by our members.

    Senator Craig. Mike, thank you very much. That's a full 
list.
    Mr. Byrne. Yes.
    Senator Craig. Now let me turn to Will Whelan, Idaho 
director of government relations, The Nature Conservancy.
    Will, it's great to have you before the committee.

    STATEMENT OF WILLIAM S. WHELAN, DIRECTOR OF GOVERNMENT 
           RELATIONS, THE NATURE CONSERVANCY IN IDAHO

    Mr. Whelan. Thank you, Mr. Chairman, I appreciate the 
invitation to come and talk with you today.
    Much of the focus today, as it seems on most days, is about 
the conflict between environmentalists and ranching, and about 
the intricacies of the rules and regulations that administer 
our public lands. I would like to shift that focus, at least 
for a few minutes, to a basic idea, and that is that ranchers 
and conservationists have interests in common and that it is 
imperative that they work together.
    First, a word about The Nature Conservancy. As you know, 
Senator, our work is grounded in pragmatism, in partnerships 
with landowners, and achieving tangible results in local 
places. An important part of our experience as conservationists 
is the fact that we are a landowner. Many of our preserves in 
the West are actually working ranches and we manage, with our 
partners, grazing in an ecologically sustainable manner.
    So the first point of common interest is the most 
fundamental. And that is that ranching and wildlife both 
benefit from healthy rangelands. It's the prime obligation of 
these agencies, and I would also say the public and the 
ranching industry, to preserve and protect the health of those 
rangelands. I think there are many ways in which 
conservationists and ranchers ought to be working together. I'm 
going to highlight briefly three of those: weeds, the 
conversion of ranch lands into subdivisions, and the issue of 
monitoring.
    There's nothing that unites people like having a common 
enemy, and noxious or invasive weeds are about the scariest 
villain imaginable and they are spreading with breathtaking 
speed across the public lands in the West. Several years ago, 
the Idaho Department of Agriculture estimated that 8 million 
acres of rangelands in Idaho were infested with weeds. That's 
about 15 percent of the entire State. It's a soft number, but 
nevertheless one that ought to set off in our minds a real 
alarm bell.
    In Idaho, The Nature Conservancy is working with local 
cooperative weed management areas that are composed of the 
management agencies and landowners, and groups like ours, to 
put together projects on the ground to fight these weeds.
    In Hells Canyon, where we work with the Tri-State CWMA to 
fight yellowstar thistle and actually have put onto the ground 
SWAT teams, Conservancy SWAT teams go out and do early 
detection and rapid response to new patches of yellowstar 
thistle.
    We want to thank you, Mr. Chairman, for your work with your 
colleagues last Congress to pass the Noxious Weeds Control and 
Eradication Act. This effort would provide Federal funding for 
CWMA's. Finding an appropriation for this act should be a high 
priority for this Congress.
    A second area of common interest focuses on the loss of 
private, working ranchlands to subdivisions and residential 
development. As you know, the Western States lead the Nation in 
population growth. And while this growth brings many economic 
benefits to our region, it also is changing our landscapes very 
quickly. So when ranchland gets developed we irretrievably lose 
the wildlife habitat that is there, and importantly, we also 
lose opportunities for good stewardship. Whether it's 
controlling noxious weeds or improving water quality or 
restoring fire adapted ecosystems, it's far better to practice 
conservation when you're dealing with a few relatively large 
and packed working ranches than when you're dealing with a 
landscape that's been split up into ranchettes or subdivisions 
with many owners--and many of them absentee landowners.
    We have some success stories. As you know, we celebrated 
earlier this summer at Henry's Lake, a landowner agreement that 
would protect habitat from development right on the doorstep of 
Yellowstone--one of the many projects around the country that 
has been funded through the Land and Water Conservation Fund. 
On a broader scale, programs like the grassland reserve, which 
was part of the last farm bill, protects working ranches from 
subdivision and conversion to other more intensive uses that 
would sacrifice both the prime ranchlands and the other values 
that those ranchlands offer.
    My third suggestion for an area to work together deals with 
rangeland health monitoring. Monitoring is a mundane label for 
something that is absolutely fundamental to good management, 
and that is understanding the condition and trend of the 
rangelands. Our partners in the ranching industry have, like 
us, made strong calls for improved monitoring.
    We think that a key to success in rebuilding trust and 
providing managers the flexibility that Mr. Norbury talked 
about in responding to the condition of the land is to have 
better information about what is happening with our rangelands, 
their ecological condition, and their trend. That is a key 
predicate for giving the land managers the authority to 
respond. And we hope as the agency shapes these monitoring 
programs that they will reach beyond the government agencies 
and involve organizations like ours and the universities and 
really put the best minds in the country together in thinking 
about how best to approach this.
    So, in conclusion, Mr. Chairman, The Nature Conversancy 
believes that it is possible, and even essential, that 
environmentalists and ranchers work together. Whether one calls 
it ``cooperative conservation'' or just being good neighbors on 
the range, our most productive work is done when we find common 
ground.
    Thank you.
    [The prepared statement of Mr. Whelan follows:]

    Prepared Statement of William S. Whelan, Director of Government 
                   Relations, The Nature Conservancy

    Mr. Chairman, members of the Subcommittee, thank you for the 
opportunity to address livestock grazing on the public lands of the 
West. I am Will Whelan, Director of Government Relations of the Idaho 
Chapter of The Nature Conservancy.
    Much of the discussion on the topic of grazing today--and most 
days--is focused on the high level of conflict between environmental 
groups and public lands ranchers. I would like to shift that focus to 
the proposition that conservationists and ranchers have important 
interests in common and that it is imperative that they work together 
to promote healthy rangelands. Although I believe this proposition to 
be true throughout the West, my comments will draw primarily from our 
experience in the sagebrush country of the Intermountain West.
    First, I would like to say a few words about The Nature 
Conservancy. The Nature Conservancy is dedicated to preserving the 
plants, animals and natural communities that represent the diversity of 
life on Earth by protecting the lands and waters they need to survive. 
The Conservancy has more than 1.1 million individual members, including 
4,500 in Idaho. We currently have programs in all 50 states and in 30 
other nations.
    Our conservation work is grounded in pragmatism, sound science, 
partnerships with landowners, and tangible results in local places. An 
important part of our experience as conservationists comes from the 
fact that we are a landowner. Many of our preserves in the West are 
working ranches where we and our partners manage livestock in an 
ecologically sustainable manner. Some of these preserves include 
grazing allotments on federal lands. In other words, we are a federal 
lands grazing permittee at places like Red Canyon Ranch in Wyoming and 
Pahsimeroi River Ranch in Idaho.
    The starting point for my comments is also the most fundamental: 
ranchers and wildlife both benefit from healthy rangelands.
    Healthy rangelands produce more forage for livestock, resist 
invasive weeds, and are more resilient after fire. Each of these 
qualities is critical to successful long-term ranching operations. One 
study of bluebunch wheatgrass-mountain big sagebrush sites demonstrated 
that healthy range produces more than double the forage than degraded 
range. Healthy rangelands also provide essential habitat for a wide 
range of plants and animals.
    The prime responsibility of public land agencies and grazers alike 
is to manage human activities to ensure rangeland health.
    There is cause for all of us to be concerned by what we are seeing 
across the rangelands of the West. The rapid pace of degradation, 
fragmentation, or total loss of sagebrush ecosystems presents a grave 
threat to both the livestock industry and everyone else who cares about 
the land. Sagebrush once covered roughly 150 million acres. Perhaps 50-
60% of the native sagebrush steppe now has either exotic annual 
grasses, such as cheatgrass and medusahead rye, in the understory or 
has been totally converted to non-native annual grasslands. These 
annual grasses produce poor quality livestock forage compared to the 
season-long forage provided by the native perennials. Large areas of 
sagebrush have been entirely lost to subdivision, roads, alternative 
crops, and other human development. Sagebrush habitats are now among 
the most imperiled ecosystems in North America.
    The speed of change in western landscapes is illustrated by the 
Clover Fire, which in just a few days last summer covered nearly 
200,000 acres in southwest Idaho. Such fires are increasingly common. 
Incredibly, sixty percent of the land affected by the Clover Fire had 
already burned in the previous 5-10 years. Highly flammable weeds such 
as cheatgrass gain a foothold in the wake of these large burns and, in 
turn, accelerate the frequency of fire in sagebrush country. Post-fire 
assessment and appropriate restoration are essential in breaking the 
cycle of fire followed by invasive weeds followed by yet more fire.
    Public policy makers need to comprehend the scope of this threat to 
rangeland health and recognize that our current land management is not 
equal to the challenges that face us. If public lands ranching and 
wildlife are to thrive in the Intermountain West, we must find new ways 
to be effective together.
    There are many ways in which ranchers and conservationists should 
work together. I will address three: weeds, conversion of ranchlands to 
subdivisions, and the need for better rangeland monitoring.
    Nothing unites people like having a common enemy, and noxious or 
invasive weeds are about the scariest villain imaginable. Alien plants 
such as yellowstar thistle, leafy spurge, and rush skeleton weed 
degrade the value of rangelands for both livestock and wildlife.
    And, they are spreading with breathtaking speed. Several years ago, 
the Idaho Department of Agriculture estimated that 8 million acres of 
rangelands were infested in Idaho alone. That's about 15% of the entire 
state.
    In Idaho, The Nature Conservancy has made a major investment in 
working with local cooperative weed management areas or CWMAs. These 
local organizations bring landowners, all levels of government, and 
groups like ours together to develop projects for fighting weeds. Here 
is what we like about the CWMAs: they are responsive to local needs, 
they are a vehicle for earning the support of landowners, and they 
permit us to extend our reach by pooling resources with partners.
    Our flagship project is taking place in Hells Canyon, where we work 
with the Tri-State CWMA to implement a weed control strategy based on 
prevention, early detection, and rapid response. Using innovative field 
survey and remote sensing techniques, we are tracking the spread of 
yellowstar thistle and other invasive plants. When we find a new patch 
in an area of ecological importance, we send in a Conservancy SWAT team 
to eradicate the weeds before they have a chance to spread. This is 
challenging and sometimes frustrating work. We still have much to learn 
about how to control a highly invasive plant in this rugged landscape. 
But, our effort is beginning to produce results and is growing. This 
year we added a second SWAT team and expanded our area of work to 
include Adams and Owyhee counties in western Idaho.
    We want to thank you, Mr. Chairman, for working with your 
colleagues last Congress to pass S. 144, the Noxious Weeds Control and 
Eradication Act. This law authorizes federal support for local weed 
control efforts such as CWMAs. Funding this effort should be a high 
priority for this Congress.
    The second area of common interest focuses on the loss of private 
working ranchlands to subdivisions and residential development. The 
western states lead the nation in population growth. This growth brings 
many economic benefits to our region. But, it is also changing the 
landscapes we cherish.
    In 2002, the American Farmland Trust conducted a study of 
ranchlands in seven western states. They found that over the next 
twenty years, these states stand to lose 11 percent of all prime 
ranchlands to urban development. As cities and subdivisions grow, many 
ranchers are looking for ways to stay on the land and keep their local 
communities, custom, and culture alive.
    There are good reasons why conservationists should support working 
rural landscapes that are in danger of being chopped up into ranchettes 
and subdivisions. Most importantly, these private lands contain 
essential wildlife habitat. For instance, in Wyoming, more than fifty 
percent of the winter habitat for big game species is on private land. 
In Idaho, the Conservancy is concerned about wildlife habitat losses in 
places such as Henry's Lake, the valley bottoms of the Upper Salmon 
River country, and the Boise Foothills.
    Numerous studies show negative ecological effects from conversion 
of ranchlands. A study in a Colorado watershed compared bird, predator, 
and plant biodiversity in sprawling areas with that in nature reserves 
and ranchlands. Researchers found that rural residential developments 
supported the highest number of human adapted bird species and domestic 
predators (dogs and cats) at the expense of native plants and bird 
species.
    Moreover, the fragmentation of working ranches into small parcels 
closes off options for good stewardship. Whether it is controlling 
noxious weeds, improving water quality, or restoring fire adapted 
ecosystems, it is far more feasible to practice good conservation in a 
landscape that has intact ranches than in an area with dozens of small 
parcels--often with absentee owners.
    There are success stories across the West. For instance, this 
summer, we celebrated a voluntary landowner agreement that will keep a 
large ranch at Henry's Lake, virtually at the doorstep of Yellowstone 
National Park, from being turned into subdivisions. For years, the 
Moedl Family had turned down lucrative offers from developers. With 
your help, Mr. Chairman, the Bureau of Land Management received a Land 
and Water Conservation Fund appropriation to secure a conservation 
easement on important wildlife habitat. The Nature Conservancy 
negotiated the agreement with the Moedls. This was a win for wildlife 
and a multi-generational ranching family.
    The Grassland Reserve Program is another success story. This 
program within the Farm Bill gave financial incentives to ranchers who 
agreed not to convert their ranchlands to other uses. The program was 
strongly supported by both the National Cattlemen's Beef Association 
and The Nature Conservancy. We hope that the 2007 Farm Bill will 
continue this important effort.
    It is clear that we can work together for voluntary incentives, 
such as GRP, that protect family ranches while providing clean water, 
natural areas, and wildlife habitat
    My third suggestion for working together involves rangeland health 
monitoring. Monitoring is a mundane label for a thing that is 
absolutely fundamental to good management: understanding the condition 
and trend of the land. If we do not know what is happening on the land, 
we cannot make sound decisions. Our partners in the ranching industry 
have, like us, made strong calls for improved monitoring.
    One way to think about the importance of monitoring is imagine what 
highly successful public rangeland management might look like. Imagine 
that we make all the right decisions today and in ten years we return 
to this committee to celebrate our success. Here are some of the 
elements that would make us proud. First, we would talk about how we 
have achieved a broadly shared understanding of the condition of our 
rangelands as well as their ecological trend. Public land managers have 
both the capacity and the policy support to manage grazing in response 
to range condition. Our improved understanding of the land and its 
needs has allowed us to direct the public's money wisely to places and 
projects that make the most difference for rangeland health. Ranchers 
are regarded as part of the solution--not merely the source of the 
problem.
    Where problems are identified, the agencies and ranchers have the 
flexibility to shape management measures that work for the rancher and 
are accountable to the condition of the land. ``One size fits all'' 
thinking is a thing of the past. There is trust among the public land 
managers, the industry, and the public.
    Needless to say, that scenario does not describe what we have 
today. What needs to change? The Conservancy believes key success is 
having a scientifically sound, cost-effective, and fully implemented 
system for monitoring rangeland health. Unless and until we have a 
strong grasp on what is happening on our public rangelands, the trust, 
the flexibility, and the support for action will remain elusive.
    For the last four years, The Nature Conservancy has been working in 
a collaborative effort with ranchers, recreationists and 
environmentalists in Owyhee County, Idaho. Interestingly, when the 
various groups first came forward with their proposals, the Owyhee 
Cattle Association and the Conservancy both arrived at the meeting with 
very similar calls for improved landscape monitoring. Monitoring is not 
an uncomplicated issue but it is one that can unite different 
interests.
    Here are some suggestions:

  <bullet> Reach beyond the land management agencies. Universities, 
        industry groups, and non-governmental organizations have much 
        to contribute. The level of their understanding of and support 
        for the monitoring system will do much to determine the level 
        of conflict in rangeland management.
  <bullet> Conduct monitoring at multiple scales. In addition to 
        allotment or pasture monitoring, we need to look at the 
        landscape and even regional scale to comprehend the truly huge 
        changes we are seeing in rangeland health. These broader views 
        will help us allocate resources to the places where they are 
        most needed and fashion landscape-specific strategies. 
        Exciting, new, and cost-effective methods for large-scale 
        monitoring using a combination of remote sensing and on-the-
        ground data offer real promise.
  <bullet> Increase the agency's capacity to put people in the field 
        for monitoring at all levels and strengthen agency-wide systems 
        for continuing education for field staff.

    The need to improve monitoring is not unique to the federal land 
agencies. The Conservancy has examined its own programs throughout the 
world and determined that we need to greatly improve our own capacity 
for monitoring and measuring success. We have created an organization-
wide team to address this challenge and made a commitment that we will 
change the way we work in response to what we learn.

                               CONCLUSION

    In the public policy arena, Americans today tend to focus on what 
divides us. Battles over rangelands will undoubtedly continue. But, the 
Nature Conservancy believes it is possible--even essential--that 
environmentalists and ranchers work together. We face many of the same 
threats. We share important interests in promoting rangeland health. 
Whether one calls it ``cooperative conservation'' or just being good 
neighbors on the range, our most productive work is done when we find 
common ground.

    Senator Craig. Well, thank you very much for that 
testimony. Now let me turn to Rick Knight. Dr. Knight is a 
wildlife ecologist from Colorado State University.

   STATEMENT OF DR. RICHARD L. KNIGHT, PROFESSOR OF WILDLIFE 
 CONSERVATION, DEPARTMENT OF FOREST, RANGELAND, AND WATERSHED 
   STEWARDSHIP, COLLEGE OF NATURAL RESOURCES, COLORADO STATE 
                           UNIVERSITY

    Dr. Knight. Thank you very much, Mr. Chairman. Please 
listen to this: ``Livestock grazing has profound ecological 
costs, causing a loss of biodiversity, disruption of ecosystem 
function, and irreversible changes in ecosystem structure.''
    Now please listen to this: ``The trend of U.S. public 
rangelands has been upwards over a number of decades and the 
land is in the best ecological condition of this century.''
    Could both be right, or wrong? In fact both of those 
statements were lifted from peer reviewed science papers 
published during the last 2 years.
    Because the American West is half public and half private, 
and because so many Western ranchers are dependent on public 
grazing lands for an economically viable operation, one cannot 
discuss public-lands grazing without acknowledging the half of 
the American West that is privately owned. Their fates, and the 
fate of the New West, are entwined.
    Approximately 21,000 ranch families who operate 
approximately 30,000 Federal grazing leases own approximately 
107 million acres of private land. Private lands in the 
American West are the most biologically productive. They have 
the best soils, they occur at the lower elevations and they're 
the best watered. These lands are critical for the maintenance 
of the West's natural heritage.
    What gives urgency to the future of ranching is the rapid 
conversion of ranchlands to rural housing developments in much 
of the West. As ranches fold and reappear in ranchettes 20 
miles from town and covering hillsides, people are increasingly 
wondering what this New West will resemble. For, with the end 
of ranching and the beginning of rural sprawl comes the 
question most central to conservationists like me: can we 
support our region's natural heritage on a landscape that is 
half public and half private, but where the private lands are 
fractured, settled and developed?
    Now, some people might think it's a far stretch to connect 
livestock raising with former city people, now living country, 
but I see it differently. Ranching and exurban development are 
part of a single spectrum of land use, representing the 
principal alternative uses of rangelands in much of the New 
West. This is so because the protection of open space, wildlife 
habitat and the integrity of rural communities runs right 
through agriculture. At one end stands the rancher, at the 
other end a developer. As we transform the West seemingly 
overnight, we see the region's private lands reincarnated as 
ranchettes, those ubiquitous estates, ranging from mobile homes 
to ``McMansions'', that are covering hillsides faster than 
herefords can exit.
    We have arrived at a point in our history where 
conversations about western lands and land health, grazing and 
ranchettes cannot be separated. They must be dealt with 
simultaneously when discussing the future of our next West. The 
science needs to be accurate, not value driven, and the 
conversations about culture and natural histories need to be 
honest, not mythologized.
    Below are five observations that are explained in my 
testimony and supported by good science that pertain to 
ranching in the West. One, ecologically sustainable ranching is 
possible. Two, rural cultures matter. Three, ranchers protect 
open space. Four, ranchers practice husbandry and stewardship. 
And five, the movement to end public land grazing is 
detrimental to a healthy American West.
    Ranch families, working viable ranches that sustain 
biodiversity and contribute to the social fabric and local 
economies, are critical to a West that works.
    Aldo Leopold, a pioneer in the American conservation 
movement and the father of wildlife management, wrote 72 years 
ago in his seminal work Game Management this: ``The central 
thesis of conservation is this: game can be restored by the 
creative use of the same tools which have heretofore destroyed 
it--axe, plow, cow, fire, and gun.'' Leopold's words 
anticipated today's time when land stewards, such as ranchers 
and loggers, would be needed to restore health to degraded 
range and forest lands. We run a great risk if we lose ranching 
as an economy in the New West. I suspect, in the not too 
distant future, public land agencies, such as the Forest 
Service and BLM, will be taking Leopold's words to heart and 
using livestock to help restore degraded rangelands. This may 
seem a far stretch in the eyes of some, but only for those who 
have not walked the land, and listened to what it says.
    Thank you.
    [The prepared statement of Dr. Knight follows:]

  Prepared Statement of Dr. Richard L. Knight, Professor of Wildlife 
     Conservation, Department of Forest, Rangeland, and Watershed 
  Stewardship, College of Natural Resources, Colorado State University

    Listen to this: ``Livestock grazing has profound ecological costs, 
causing a loss of biodiversity, disruption of ecosystem function, and 
irreversible changes in ecosystem structure.'' Now this: ``The trend of 
U.S. public rangelands has been upwards over a number of decades and 
the land is in the best ecological condition of this century [the 
20th].''
    Could both be right, or wrong? In 1994, the research arm of 
America's most august group of scientists reported that inadequate 
monitoring standards prevented them from concluding whether livestock 
grazing had degraded rangelands in the West. Critically, they concluded 
that, ``Many reports depend on the opinion and judgment of both field 
personnel and authors rather than on current data. The reports cited 
above [this report] attempted to combine these data into a national-
level assessment of rangelands, but the results have been 
inconclusive.''
    Because the American West is half public and half private, and 
because so many Western ranchers are dependent on public grazing lands 
for an economically viable operation, one cannot discuss public-lands 
grazing without acknowledging the half of the American West that is 
privately owned. Their fates, and the fate of the New West, are 
entwined, indivisible.
    The future of Western ranching and the role of science in shaping 
public policy regarding ranching is a topic still under discussion. 
What gives urgency to this issue is the rapid conversion of ranchland 
to rural housing developments in much of the West. As ranches fold and 
reappear in ranchettes, 20 miles from town and covering hillsides, 
people of the West and beyond increasingly wonder what this New West 
will resemble. For with the end of ranching and the beginning of rural 
sprawl comes the question most central to conservationists, ``Can we 
support our region's natural heritage on a landscape, half public and 
half private, but where the private land is fractured, settled, and 
developed?''
    Some people might think it is a far stretch to connect livestock 
grazing with former-city-people-now-living-country but I see it 
differently. Ranching and exurban development are part of a single 
spectrum of land use in the West, representing the principal 
alternative uses of rangelands in much of the New West. This is so 
because the protection of open space, wildlife habitat, and the 
aesthetics of rural areas runs right through agriculture; at one end 
stands a rancher, at the other a developer. As we transform the West, 
seemingly overnight, we see the region's private lands reincarnated as 
ranchettes, those ubiquitous estates, ranging from mobile homes to 
mansions, that are covering hillsides faster than Herefords can exit. 
We have arrived at a point in Western history where conversations about 
Western lands and land health, grazing and ranchettes, are entwined, 
cannot be separated. They must be dealt with simultaneously when 
discussing the future of our Next West. The science needs to be 
accurate, not value driven, and the conversations about cultural and 
natural histories need to be honest, not mythologized. Science is 
important in these discussions, but to be useful, the science must be 
done carefully so that the answers are the best we can get. Ranchers 
and scientists and environmentalists need to look better and listen 
more carefully. Below are five observations, supported by social and 
ecological science.
    a. Ecologically Sustainable Ranching is Possible. Ranchers 
understand that to be economically viable on a sustainable basis 
requires one to ranch in a way that is ecologically sound. Rangelands 
co-evolved with grazing and browsing (natural ecological processes). In 
the absence of grazing and browsing rangelands shift into something 
else. Science is just now catching up to what many ranchers already 
know--that by letting animals behave within ``nature's model'' they can 
have their grass and eat it too.
    b. Cultures Matter. Ranching in the American West is over 400 years 
old. Indeed, it is the oldest sustainable use of Western lands. More 
than any other justification, the timeless traditions of ranching 
legitimizes its existence and continuation. An irony hard to ignore is 
evident when Americans argue for the maintenance of biodiversity 
without realizing the equal legitimacy of different cultures.
    c. Ranchers Protect Open Space. It is estimated that the 
approximately 21,000 ranch families who operate approximately 30,000 
federal grazing leases own at least 107 million acres of private land. 
Private lands in the American West are the most biologically productive 
(deepest soils, best watered, lower elevations). These lands are 
critical for the maintenance of the West's natural heritage. The 
alternative uses of these lands (residential and commercial 
development) are ecologically and economically flawed. In the only 
scientific study to date that has compared biodiversity (carnivores, 
songbirds, and plant communities) on lands that are grazed with 
equivalent ungrazed lands, the ranchlands supported more species of 
conservation concern and fewer invasive species; while the ungrazed 
lands were dominated by non-native species. In addition, the 
alternative land use to private ranchlands is residential and 
commercial development. Studies to date show that these rural lands, 
once they have been sub-divided, support the same human-adapted species 
that one finds in city suburbs. This occurs at the expense of species 
of conservation interest, hastening the day that these species become 
candidates for Federal protection. There is a perverse economic twist 
to this land-use conversion as well. Property taxes from exurban 
development (former ranchlands now in ``ranchettes'') fail to cover the 
economic costs of county governments and local school districts. For 
example, in Wyoming, for every dollar of property taxes paid by 
ranchette owners, the cost of county services and schools is $2.40; 
whereas, for every dollar of property taxes paid by ranchers and 
farmers, county and school costs are only $0.69. As the saying goes, 
``cows don't drive and wheat doesn't go to school!''
    d. Ranchers Practice Husbandry and Stewardship. Husbanding domestic 
animals and stewarding open lands are traditions in America practiced 
by ranchers. These skills no longer exist in any other American 
enterprise. By their very scarcity, they are being increasingly valued 
by Americans who are paying attention.
    e. The Movement to End Public-land Grazing is Detrimental to a 
Healthy American West. The reciprocal demonization of ranchers and 
environmentalists--the so-called ``rangeland conflict''--has dominated 
public debate for too long. It has not contributed to on-the-ground 
solutions. Instead, it has enraged rural Westerners, paralyzed agencies 
and frustrated public leaders. It has divided people who might 
otherwise be united by common goals: the conservation of magnificent 
open spaces, scarce water resources, and imperiled wildlife. If it 
continues, both sides will lose what they purport to defend. The 
increasing popularity of rancher-led initiatives (community-based 
conservation, cattlemen land trusts, grass-banking, healthy beef 
initiatives, cooperative conservation initiatives) demonstrate that 
cattlemen are an essential pillar in an American West that works 
better.
    Ranch families working viable ranches that sustain biodiversity and 
contribute to the social fabric and local economies are critical to a 
West that works. Indeed, in most of the arid West, ranching is now the 
only livelihood that is based on human adaptation to wild biotic 
communities. Its ultimate competitive advantage is equivalent to its 
ecological sustainability; grass and cattle can grow on their own, with 
minimal human inputs. No matter how grave its flaws or its historical 
misdeeds, ranching now stands out for its dependence on native biota 
and unaltered landscapes.
    Aldo Leopold, a pioneer in the American conservation movement, and 
the father of wildlife management, wrote 72 years ago in his seminal 
work Game Management:

          ``The central thesis of conservation is this: game can be 
        restored by the creative use of the same tools which have 
        heretofore destroyed it--axe, plow, cow, fire, and gun.''

    Leopold's words anticipated today's time when land stewards, such 
as ranchers and loggers, would be needed to restore health to degraded 
range and forest lands. We run a great risk if we lose ranching as an 
economy in the New West. I suspect, in the not too distant future, 
public land agencies, such as the Bureau of Land Management, will be 
taking Leopold's words to heart and using cows and sheep to help 
restore degraded rangelands. This may seem a far stretch in the eyes of 
some, but only for those who have not walked the land, and listened to 
what it says.

    Senator Craig. Thank you. Thank you very much for that 
testimony. It was about 25 years ago when I came to Congress. 
And I was bemoaning the fact that if the rancher went away the 
land would be broken up, the contiguousness of it would be in 
trouble. And I am increasingly alarmed by the ``McMansions'', I 
believe you called them Doctor, that are probably growing 
faster in Idaho right now than grazing itself. And it will 
change, and it is changing fundamentally the character of the 
land, from wildlife movement and migration patterns, obviously, 
to the land conditions itself.
    We've already found that the Forest Service is spending 
more time putting out fires to protect large private homes than 
they are protecting forested lands and all of that type of 
thing. So those kinds of things are all happening, and I must 
say that your comments are interesting and reassuring today. I 
suspect, though you're suspect, you've got boots on.
    Dr. Knight. Well, I came to the Nation's Capitol, sir.
    Senator Craig. Excuse me.
    [Laughter.]
    Dr. Knight. I didn't mean that, Senator. I didn't mean it.
    Senator Craig. Does that mean that anticipates wading 
through?
    Dr. Knight. No, sir. No.
    Senator Craig. Let's leave that on the record, it's 
probably somewhat appropriate.
    Dr. Knight. I'm not Ward Churchill, from the University of 
Colorado.
    Senator Craig. You wouldn't be before my committee if you 
were. I would not give you that respect.
    [Laughter.]
    Dr. Knight. Yes, sir.
    Senator Craig. Okay. Fine enough. But thank you very much 
for that testimony. Why do so many think that grazing on public 
lands is harmful?
    Dr. Knight. Thank you for asking that, sir. As an ecologist 
and a scientist I've been trying to figure that out too. 
Because I probably came to ranching, as so many contemporary 
Americans growing up in a suburb, almost believing from your 
mother's milk that grazing was detrimental to land health, 
logging was detrimental to land health, and water development 
and diversion is detrimental to land health.
    Well, I've got my Ph.D., and I've been in wildlife science 
for some 30 years, and the best I can understand it is we have 
a certain degree, regretfully, of value-driven science. And at 
the end of the day, scientists are people before they are 
scientists, so you do see value-driven science.
    Second--and this is probably the most flagrant violation--
you see lots of published peer review science where it had 
inappropriate study design. For example, you might find them 
looking at one area on a certain soil type and elevation and 
plant community and comparing it to another area, one grazed 
and one not grazed, but on a different soil type, in a 
different plant community, a different elevation. Naturally the 
results are going to vary because of those fundamental 
differences.
    And then third, because it is such a topical issue, we have 
lots of non-scientists mimicking scientists and writing about 
grazing as though they are scientists. For example, Debra 
Donahue's book about western lifestyle grazing. Mrs. Donahue is 
a lawyer, she's not a scientist.
    When you exclude those three categories, Mr. Chairman, what 
you end up with, by and large, because we can certainly 
overgraze landscapes just like we can over-log them or over-
recreate them, but when you eliminate those three categories 
and you look at studies that are well designed by people who 
understand ecological processes and people that are 
appropriately trained, you tend to find the science supports 
livestock grazing.
    I'm a conservation biologist. I support livestock grazing, 
because I've looked at those studies and I've conducted studies 
like that myself, and they actually support this 
generalization, grazing done well actually is not even benign, 
it actually promotes land health, just as Aldo Leopold 
suggested it would 72 years ago.
    Senator Craig. Well, thank you for your testimony and for 
that statement. I think it's tremendously valuable that folks 
like you are willing to stand up from your professional 
background and speak of these kinds of issues in ways that some 
will listen to.
    Will, thank you for your positive testimony, and I think 
the Nature Conservancy and Idaho has some very interesting and 
valuable partnerships underway, and it is important. You spoke 
of the monitoring of weeds in Hells Canyon, and a variety of 
the weed projects we have underway at this moment that both of 
us think are critically important for the health of our 
rangelands. What are some of the lessons you've learned from 
this effort, especially the Hells Canyon effort?
    Mr. Whelan. Thank you, Senator. It's been an interesting 
and difficult and at times frustrating, but very valuable 3 
years doing this project in Hells Canyon, and I think we can 
derive a couple of different lessons from it--lessons, I'll 
say, by the way, we intend to fully share with the land 
management agencies who are our partners in this project.
    First of all, the importance of getting a handle on the 
dynamics of the spread of these weeds. We initially thought 
that we were going to do this by using satellites, but it 
didn't work. Now what we do, we put people on planes and 
helicopters, where we can fly 20,000 acres in a day, and find 
the leading edge of invasion and get the spots we need to 
treat.
    The second lesson is the importance of having people who 
can get on the ground quickly, regardless of the ownership of 
the land in question. Getting people to the right spot quickly 
is key. For that we have SWAT teams. And some of this country, 
as you know, because it's kind of your home country, is 
extremely rugged. Last year we had a fellow who was kicked in 
the arm by a mule and sent to the hospital. We have mule teams 
going into some of these places, but getting in there while you 
have an invasion, just beginning is the key. Mobility and eyes 
in the sky are key to what we're learning in Hells Canyon.
    Senator Craig. Well, you're right. Some of that country 
is--I think there's an expression called steep as a cow's 
face--even steeper.
    Mr. Whelan. Yes, if you straightened it out, I think we'd 
have an extra state hidden in that country somewhere.
    Senator Craig. I've tried to convince Texans of that. 
They'd be relatively small. Anyway, you did mention, and it 
does lend itself in part to the frustration that I think Dr. 
Knight has spoken to, when you were dealing with Dennis Moedl--
that's right over in the Henry's Lake area--and the work that 
has gone on there to basically save a ranch, and save a 
resource, and save a habitat, and save an open space, and save 
a vista. Speak to that a little more if you would, please, 
because that's a partnership that seems to be applicable in a 
variety of areas, if we could get to it.
    Mr. Whelan. Thank you, Senator. The issue of growth and 
subdivision is not an issue everywhere in Idaho, but you have 
to imagine a landscape of really breathtaking beauty, on the 
doorstep of Yellowstone, about a 20 minute drive from West 
Yellowstone, in an area of private land that sits between 
Yellowstone National Park and the Centennial Range. It's a 
critical wildlife habitat corridor, for big game and a number 
of animals. It's also becoming very, very desirable real 
estate. The Moedl family has been in the ranching business for 
generations and they were getting offers from developers to 
subdivide that ranch, and that would have cut off those 
migration routes between those mountain ranges. He also runs a 
summer camp for kids, brings kids out there and teaches them 
how to ride a horse, how to take care of cows, teaches them, I 
think, some character along the way. And he wanted to keep that 
ranch and that summer camp in the family, and by working 
through the Land and Water Conservation Fund, and the Bureau of 
Land Management, the Nature Conservancy was able to negotiate a 
deal with the Moedl family, that compensated him for some of 
the development value of that land, in exchange for a 
commitment to keep the habitat in open space. It's just a 
wonderful project, we're very proud of it, and thank you for 
your help in making that happen.
    Senator Craig. Well, like I say, it doesn't fit in every 
instance, certainly, but I think we need to explore that more, 
especially as these land values become so phenomenally enticing 
to generational ranchers who have really founded a lifestyle 
more than an investment of substantial return, as we know that 
cattle ranching can be. And it is very frustrating to see some 
of these very valuable land resources--that's what I view 
ranches to be--broken up in the way that they are in some 
instances happening, so thank you for that.
    You lay out good reasons for why conservationists should 
support working landscapes, do you have sense for why so many 
within the conservation community don't recognize this 
combination of values at work?
    Mr. Whelan. I don't, Senator. I'm not sure I can put myself 
into the head of our colleagues and friends in the conservation 
movement all the time, you know. And I think Dr. Knight was 
correct in saying that it is possible to do grazing in an 
ecologically sound manner. If that were not true, we would not 
be having cows on preserves like the 45 Ranch, the Pahsimeroi 
Ranch, and the Crooked Creek Ranch. Grazing has an effect on 
the ground, and it's critical that that grazing be accountable 
to the condition of the land and that it is managed for 
rangeland health. That's in all of our interests. But it is 
increasingly clear throughout the West that we have a challenge 
maintaining the pattern of land ownership on private lands and 
what we do with rural landscapes will have a lot to do with how 
much wildlife habitat remains on private lands and the seasonal 
home for wildlife that uses the public lands.
    Senator Craig. Well, thank you for those comments and for 
what The Nature Conservancy is doing at this moment in Idaho. I 
think that there are some very valuable partnerships there that 
are working well for the land and the resources and the people 
involved.
    Mike, thank you for being here and speaking out as you 
have. I'm concerned about the situation you've described 
concerning the Wild and Scenic Rivers designation and grazing. 
It's been my belief that Congress provided protections to 
existing grazing uses in the original act. Is there something 
unique to the Oregon designations that have facilitated these 
court decisions?
    Mr. Byrne. I'm not aware if it's unique to Oregon, but I 
think the word ``enhance'' seems to be the one that the courts 
are getting hung up on. Instead of maintaining high quality 
habitat, they're saying that the existing uses are authorized, 
but they need to enhance the value of the Wild and Scenic.
    Jeff is here, our national director. Do you have anything 
to add?
    Mr. Eisenberg. Well, Dr. Knight in his very opening comment 
made a statement that was really extremely profound. And I'm 
always frustrated by--from where you measure, as to what 
enhanced is, or what improved is. I was reading the diary of a 
cavalry officer in Idaho in the mid-1800's. Now from what basis 
he could--he had knowledge, I'm not sure, but he had made the 
observation that by the mid-1800's, Idaho rangeland had been 
depleted by over 50 percent. And of course that was the years 
of massive horse grazing and southwestern cattle movements up 
across the rangelands of Idaho and Montana and Wyoming. And 
I've always, from that, said where do you measure? Yesterday? 
And do you view that as the state of depletion of 20 years ago 
and the progress that's been made? And my guess is probably the 
word ``enhance'' has frustrated and/or been effectively used as 
a tool by some who might otherwise find another tool.
    Senator Craig. Well, thank you for your observations. I do 
hope that the House is successful in passage of some 
modifications in the Endangered Species Act. We will attempt 
here to deal with them in a way that can produce a changed law 
that allows some flexibility and some management instead of the 
lockstep that we've seen largely incorporated in court 
decisions over the last several decades that is well beyond 
what an Oregonian by the name of Mark Hatfield intended the 
Endangered Species Act to be, as did many others. Those still 
living who were there at its inception are looking at it now 
and saying, no, that is not what we intended. I don't think it 
was ever intended that you list and have less than about a 1-
percent recovery of all of those listed. It has really become a 
tool for exclusion of activity more than it's become a tool of 
effective management to save species, and hopefully we can 
change some of that. And it is difficult, obviously, because of 
how some interest groups hold the act, or see it as a valuable 
tool to accomplish what their perception of land use, or non-
use ought to be.
    Well, gentlemen, we thank you very much for your testimony, 
and as I said in my opening remarks we will monitor very 
closely what our agencies do over the next several years as we 
try to rid ourselves of the backlog and create the kind of due 
diligence that is necessary within the agency itself. But I do 
think that all three of you have expressed what--at least in 
some ways--is a growing understanding about the value of 
properly managed grazing in the whole of the ecosystems of 
our--especially in the West where you have environments that 
are by definition fragile and yet can be highly productive and 
beneficial to surrounding communities of interest for a lot of 
reasons. So, again, thank you very much for you time before the 
committee. It's appreciated, and I think the record you helped 
us build today is very valuable.
    The committee will stand adjourned.
    [Whereupon at 3:45 p.m. the hearing was adjourned]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                        Department of the Interior,
           Office of Congressional and Legislative Affairs,
                                 Washington, DC, November 10, 2005.
Hon. Gordon Smith,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Smith: Enclosed are responses prepared by the Bureau 
of Land Management to questions submitted following the September 28, 
2005, hearing regarding Grazing.
    Thank you for the opportunity to provide this material to the 
Committee.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]
    Question 1. As you know, the Owyhee court decision asserted that 
grazing in Wild and Scenic river corridors must ``protect and enhance'' 
biological resources in the area. However, the decision disregarded the 
fact that grazing existed long before the Wild and Scenic River 
designation. It also disregarded the fact that Congress intended 
grazing to continue in the area. Is there. a better way for Congress to 
assert its intentions when it designates land for certain uses?
    Answer. The Wild and Scenic Rivers Act (WSRA) states that a river 
that is subject to the WSRA shall be administered ``in such manner as 
to protect and enhance the values which caused it to be included in 
said system without, insofar as is consistent therewith, limiting other 
uses that do not. substantially interfere with public use and enjoyment 
of these values.'' (Public Law 90-542, Sec. 10(a)). A management plan 
for a WSRA river segment ``may establish varying degrees of intensity 
for its protection and development, based on the special attributes of 
the area.'' (Id.) Thus, the WSRA does not ban activities such as 
domestic livestock `razing, but requires that the BLM manage them in a 
manner that is consistent with the protection and enhancement of the 
river values. The BLM is given the discretion to strike this balance, 
while satisfying the mandates of other statutes, such as the Taylor 
Grazing Act, the Federal Land Policy and Management Act, and the Public 
Rangelands Improvement Act.
    Management decisions are made through BLM's planning process that. 
provide for long-term direction for each of the wild and scenic rivers. 
In developing these plans, the BLM works with all interested parties to 
balance the wide range of uses that occur on wild and scenic rivers. In 
most plans, the BLM does in fact balance the management of the river 
resource with grazing, Grazing still occurs along the vast majority of 
BLM managed wild and scenic rivers.
    In the Owyhee case, a solution for the area's complex management 
issues proved extremely difficult. The issue of :razing within the 
rugged Owyhee Wild and Scenic River corridor arose as a result. of the 
difficulty in reaching consensus regarding how livestock grazing within 
the corridor could be economically managed while protecting and 
enhancing important resource values. In this situation, while the BLM 
attempted to maintain grazing within the canyon, approximately 25% of 
the area was identified by the BLM as ``areas of concern'' due to the 
impact of cattle grazing. The Court found that. for the ``areas of 
concern,'' the BLM management plan was not adequate for the protection 
of the areas river values and ordered the area to be closed to grazing. 
In the end, the BLM had. to permanently reduce 958 AUMs on 18 miles of 
the Owyhee. Grazing continues meanwhile, on the uplands surrounding the 
canyon and on the other portions of the Owyhee Wild and Scenic River.
    The BLM will continue to work., through its land use planning 
process, to balance the requirements of all applicable laws and the 
needs of all users.


</pre></body></html>
